<html>
<title> - U.S. POLICY IN YEMEN</title>
<body><pre>[Senate Hearing 115-778]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-778
 
                        U.S. POLICY IN YEMEN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 17, 2018

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-163 PDF              WASHINGTON : 2020                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     4

Satterfield, Hon. David M., Acting Assistant Secretary, Near 
  Eastern Affairs, United States Department of State, Washington, 
  DC.............................................................     7
    Prepared Statement...........................................     8

Jenkins, Robert, Deputy Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, United States 
  Agency for International Development, Washington, DC...........    10
    Prepared Statement...........................................    12

Karem, Hon. Robert S., Assistant Secretary, International 
  Security Affairs, U.S. Department of Defense, Washington, DC...    15
    Prepared Statement...........................................    16

              Additional Material Submitted for the Record

Responses of Mr. Robert Jenkins to Questions Submitted by Senator 
  Marco Rubio....................................................    43

Responses of Mr. Robert Jenkins to Questions Submitted by Senator 
  Todd Young.....................................................    43

Responses of Hon. Robert S. Karem to Questions Submitted by 
  Senator Marco Rubio............................................    44

Responses of Hon. Robert S. Karem to Questions Submitted by 
  Senator Tim Kaine..............................................    45

Responses of Hon. Robert S. Karem to Questions Submitted by 
  Senator Todd Young.............................................    46

Responses of Hon. Robert S. Karem to Questions Submitted by 
  Senator Cory Booker............................................    46


                                 (iii)

  


                          U.S. POLICY IN YEMEN

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Isakson, Paul, Menendez, Cardin, Shaheen, Coons, 
Udall, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Good morning.
    The Senate Foreign Relations Committee will come to order.
    We might talk a little openly about another topic before we 
introduce you, but thank you so much for being here.
    We, as you know, introduced legislation last night to 
update and replace the 2001 and 2002 AUMFs a week in advance of 
when we planned to have a markup.
    Senator Menendez and I talked at the last hearing about the 
best way to make sure members were up to date. I do want to 
point out that just this Congress we had a hearing on June the 
20th about authorizations for the use of military force with 
Bellinger and Hicks. On August the 2nd, we had a closed hearing 
with Secretary Tillerson and Secretary Mattis on the same 
topic, August 2nd. On October 30th, we had the authorization 
for use of military force from the administration's perspective 
by Secretary Tillerson and Secretary Mattis, and then on 
December the 13th, we had another hearing with Stephen Hadley, 
Christine Wormuth, and John Bellinger. It was those hearings 
that then developed the principles that I then gave to Senator 
Cardin at that time, and that is what we have been working off 
to create an AUMF. So those hearings created the body of work 
that we now have.
    In addition, since I have been the lead Republican, we had 
a hearing in 2015 with Secretary Kerry, Secretary Carter, and 
General Dempsey. We had one in December of 2014 with Secretary 
Kerry, and we had one again May 21, 2014, with Stephen Preston 
and Mary McCloud.
    So when we did the bipartisan Syria AUMF, we had a working 
meeting where we all sat down and went through it and people 
were able to talk openly about it. That is what we propose to 
do here on Wednesday, to have an all-members meeting, staff 
meeting, sit in a room and walk through it just like we did 
last time we did a bipartisan AUMF which would give people time 
to write amendments before amendment deadline.
    So to me, having another hearing felt like to me--I know it 
is and I have talked to Senator Menendez since--felt like a 
stall tactic, when really we have hearing'ed this thing to 
death. The hearings are what developed the principles that 
caused us to come to this bipartisan agreement.
    So I hear you, but I cannot imagine--we have got a week. 
The text is out. I am glad to spend however many hours people 
want to spend on Wednesday walking through in a closed session. 
So I guess I am not understanding. When we did the Syria--when 
we wrote it that day and passed it. Let me say one more time. 
We wrote it that day and passed it. So I guess I am confused as 
to why this appears--feels to be rushed.
    Senator Menendez. Mr. Chairman, if I may.
    The Chairman. Of course.
    Senator Menendez. Mr. Chairman, you know, we have a history 
of working collaboratively with you.
    But an AUMF is the single most significant vote. An 
authorization for the use of military force is the single most 
significant vote a Member of Congress can take because it is 
about sending and committing our sons and daughters to war and 
to actions and risking their lives. So it is a very momentous 
occasion.
    Now, I appreciate the chairman's recital of hearings that 
have been had in concept about what an AUMF should look like. 
But the reality is in the past we have had specific hearings on 
a specified AUMF to be marked up before we actually voted on 
it.
    We got the final version last night, and it seems to me 
that the full implications and details of the text should be 
publicly vetted before a vote, so that the Congress is not 
creating unintended consequences or ways the AUMF could be 
misused in the future, as some of us believe the ones in 2001 
and 2002 have been used.
    I think the administration should be heard on it. It must 
take responsibility for executing war and sharing their views 
on the text. And right now, we do not have their views at all. 
We did when we voted on those other ones.
    And I think the American people deserve the opportunity to 
hear the full arguments about the implications of the text, 
since it involves sending their sons and daughters into war for 
possibly many years to come.
    Now, I think that our request for a hearing is not 
stalling. As I have said to you privately and I will say here 
publicly, I have no problem getting to a markup on that AUMF. I 
have cast votes for AUMFs. So I am not fearful of having a 
determination. When I think the AUMF is a correct one, I will 
vote for it, and when I think it is improper or not properly 
drafted, I will vote against it. But I think this is the 
singular most important thing we can do, and I do not think it 
takes an inordinate amount of time to get some thoughts both 
from the administration, as well as from non-administration 
witnesses. All can be done at one hearing in one day, and then 
members could think about the testimony they have heard on the 
specific AUMF that is being voted on and have an opportunity to 
prepare their amendments, should they believe there should be 
some.
    I compliment you and Senator Kaine on trying to come to a 
draft that seeks to move the issue forward, but I think this is 
a momentous vote and I think it needs the appropriate 
attention. So it is not about stalling. Let us get that 
straight. It is about a thoughtful consideration of what this 
specific AUMF says, what it means, looking at all the 
implications of it, coming to an understanding of it, and then 
thoughtfully being able to draft amendments and cast the final 
vote. I think I express the concern of many of my members on my 
side who feel that way, and so that is why I wrote you the 
letter that I did.
    The Chairman. Let me see if I can get an administration 
official up here on Wednesday, and we will see what we can do. 
I think we might actually be better off having them maybe down 
in the SCIF, which is what we did on the Syria piece. I do not 
care where we do it. And then, obviously, when we have a 
markup, the public will be watching, and everyone can 
understand the implications. But let me see what I can do about 
potentially having someone from the administration here on 
Wednesday to walk through it.
    Senator Menendez. I would urge you--it would be very good 
to have an administration witness, and from my perspective, I 
believe most of it can be done in public. We are not talking 
about actions specific.
    And secondly, I would urge you to consider some analysis 
outside of the administration of the specific text. All could 
be done at the same time, and I think that would be a good way 
to move forward.
    The Chairman. Duly noted, and we will see where it goes. We 
will keep talking.
    Again, I want to say one more time I doubt there has ever 
been as many hearings in advance to develop principles to bring 
people together around an AUMF in advance. Actually there has 
been so much preparatory work done on this. I think people 
understand the implications. We talked about all these 
publicly. But I hear you and I understand you have members of 
your caucus that are pushing for that to occur, and I realize 
that.
    So I thank you for the way you work with us most of the 
time.
    [Laughter.]
    Senator Menendez. We feel the same way about you, Mr. 
Chairman, most of the time.
    The Chairman. I know you do. I know you do.
    [Laughter.]
    The Chairman. So with love, we thank Acting Assistant 
Secretary Satterfield, Assistant Secretary Karem, and Mr. 
Jenkins for joining us here today. This hearing will examine 
U.S. policy towards Yemen, particularly in light of the growing 
concern within Congress regarding the civil war and its dire 
humanitarian consequences.
    According to the United Nations, more than 22 million 
people, roughly three-quarters of the population, need 
humanitarian aid and protection, and 18 million people are food 
insecure. Last year, there were over 1 million suspected cases 
of cholera.
    While Yemen has always faced significant socioeconomic 
challenges, a civil war, which began with the Houthis' armed 
takeover of much of the country in 2014 and their overthrow of 
Yemen's legitimate government in January 2015, has plunged the 
country into a humanitarian crisis. Iran's support of the 
Houthi rebels and the intervention of Saudi-led forces to 
restore Yemen's deposed government, which began in March of 
2015, have been particularly devastating. In over 3 years of 
conflict, thousands of civilians have been killed. Airstrikes 
have hit schools, weddings, and hospitals. Humanitarian groups 
cannot reliably provide aid due to movement constraints, and 
uncertain port access has slowed commercial imports of food and 
fuel.
    Of course, Saudi Arabia is a longtime U.S. partner, but 
partners must be candid with each other. So I have raised my 
concerns regarding--as many people here have--Saudi Arabia's 
conduct in Yemen with senior Saudi officials, including the 
Crown Prince, on multiple occasions in this last year. I know 
that many of my colleagues have done the same thing, as I have 
mentioned, and I urge them to continue doing so, as I will.
    But at the same time, Saudi Arabia has a right to defend 
itself from more spilling across its border. For nearly 2 
years, the Houthis have fired Iranian-manufactured ballistic 
missiles into Saudi territory. In recent months, they have 
aimed these missiles at Riyadh. At least hundreds of Saudis 
have been killed in the fighting, and millions live under 
constant threat of attack. So resolving the conflict in Yemen 
means helping Saudi Arabia address its legitimate security 
concerns to prevent entrenchment of an Iranian-armed group on 
its southern border.
    As the committee considers ways to support effective U.S. 
policy on Yemen, I look forward to hearing our witnesses 
provide details on what the U.S. is doing diplomatically to 
encourage resolution of the conflict. I also hope our witnesses 
will explain the nature of U.S. support to the Saudi-led 
coalition, including relevant authorities and what can be done 
to address the humanitarian situation.
    With that, I ask the ranking member if he wishes to make 
any opening comments. I am sure he does, and I look forward to 
hearing those.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for convening 
this important hearing and inviting witnesses from the State 
and Defense Departments, as well as USAID.
    Given our committee's jurisdiction over the execution of 
U.S. foreign policy and the State Department in particular, it 
is fundamentally necessary that we receive testimony from the 
very administration officials executing that policy, not just 
outside experts.
    Last month marked the third anniversary of the current 
conflict in Yemen. Statistics of the scale of the human 
suffering defy imagination. 22.2 million Yemenis, more than 80 
percent of the entire population, require humanitarian 
assistance. The loss of more than 50 percent of Yemen's 
nighttime electricity, a key condition for maintaining 
hospitals, water supply systems, and communications. Eight 
million Yemenis are on the brink of starvation, the largest 
cholera outbreak in modern history.
    This hearing is particularly timely given the debate the 
Senate recently held on the U.S. military support to the Saudi-
led coalition. This hearing is also relevant given the visit of 
the new U.N. Special Envoy for Yemen, Martin Griffiths, to the 
U.N. Security Council yesterday to brief on Yemen, as well as 
the reports of a new Saudi coalition offensive.
    As we consider U.S. policy on Yemen, we do so in a regional 
context, acknowledging U.S. relations with critical partners. 
Saudi Arabia has endured SCUD and ballistic missile attacks 
from Yemen on a scale that no American would ever accept. 
Iranian-backed Houthi fighters have launched attacks aimed at 
Saudi populations, economic infrastructure, and defense 
installations. There have also been attacks aimed at U.S. naval 
craft. This is unacceptable, dangerous, and counter to U.S. 
interests.
    The threats coming from Yemen did not suddenly appear, but 
after years of brewing tensions between various factions within 
Yemen, Iranian fingerprints are all over the escalation in the 
Houthi illicit terrorist activities.
    To be clear, the terrorist threat in Yemen does not excuse 
the conduct of the Saudi coalition, which bears significant 
responsibility for the scale of civilian casualties and damage 
to civilian infrastructure. But there are other actors and 
stakeholders in this conflict, including Iran, al Qaeda, and 
ISIS, and all are implicated in violations of the Law of Armed 
Conflict, international humanitarian law, and human rights 
abuses.
    Instead of a comprehensive strategy to push back on Iranian 
malign interference in Yemen and the spoiler role that Russia 
is playing, as I have pointed out in numerous other contexts, 
this administration is actively dismantling the State 
Department and underfunding our assistance programs, the very 
entities that have the potential to play critical roles in 
moving towards a political settlement and addressing the 
humanitarian crisis.
    Last month, the Senate debated one element of U.S. policy, 
the provision of limited military support, including refueling, 
intelligence, and advice to the Saudi coalition. I appreciate 
the commitment of Senators Lee, Sanders, and Murphy in calling 
for a debate and vote on that one element.
    In explaining my vote against discharging the resolution 
from the committee, I encourage my colleagues to expand the 
aperture of the debate. I want to understand our broader 
operations and policy objectives before seeking to end or 
change just one element. Absent a compelling articulation of 
how continued U.S. military support to the coalition is 
leveraging movement towards a political track and negotiation 
to end the war, it is reasonable to expect that the next vote 
on U.S. military support may have a different outcome.
    Specifically, what steps is the administration taking 
diplomatically and politically to end the war?
    What types of assistance are appropriate in assisting our 
partners in the legitimate defense needs?
    What is the administration doing to alleviate the worst 
humanitarian crisis in the world, and what more can the Saudi-
led coalition do?
    Given the increasing lethality and sophistication of 
Iranian support to the Houthis in Yemen, how does the conflict 
in Yemen factor into the administration's strategy to counter 
Iran?
    Finally, I would like to hear some clear statements from 
our witnesses as to whether there is a military solution to 
this conflict. And unless our witnesses are going to surprise 
us with a new announcement, the answer has been for years and 
continues to be no.
    Finally, Mr. Chairman, it would be difficult to consider 
this hearing without addressing the administration's actions in 
Syria over the weekend. In my view, what connects this 
weekend's military strikes against Assad's chemical weapons 
facilities and this administration's approach to Yemen is the 
alarming absence of a strategy. President Trump's over-reliance 
on the military arm of our government, coupled with his 
antagonizing, defunding, and dismantling of our diplomatic and 
assistance arms, will lead to only one dangerous outcome, that 
we will have nothing left other than military force to address 
conflict and promote our interests.
    I am not opposed to the appropriate and authorized use of 
military force, but before we send our uniformed men and women 
into battle and ask them to be prepared to make the ultimate 
sacrifice, we should always be able to tell them and the 
American people what the stakes are and that we have exhausted 
our diplomatic tools.
    I am still waiting for the broad articulation of strategy 
in the region and understanding how U.S. military support to 
the Saudi coalition is helping us in moving towards the 
ultimate goal of a negotiated settlement that prioritizes 
saving lives and ending the suffering of innocent Yemeni 
civilians. And I hope today's hearing can help us understand 
that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Our first witness is Acting Assistant Secretary of State 
for Near Eastern Affairs, Ambassador David Satterfield. 
Ambassador Satterfield is one of our most distinguished 
diplomats. He most recently served as Director General of the 
Multinational Force and Observers in the Sinai Peninsula and 
previously served as U.S. Ambassador to Lebanon. Thank you for 
being here.
    Our second witness is Robert Jenkins who serves as the 
Deputy Assistant Administrator for USAID's Bureau for 
Democracy, Conflict, and Humanitarian Assistance. Mr. Jenkins 
recently marked 20 years at USAID and previously served as the 
Director of the Office of Transition Initiatives. Thank you for 
being here.
    And our third witness is Assistant Secretary of Defense for 
International Security Affairs, Robert Karem. Very protocol-
oriented. I wanted to make sure our civilian guys were first. I 
want you all to know that. Prior to his Senate confirmation 
last year, Mr. Karem served as national security staff of Vice 
President Cheney and then as National Security Advisor to the 
House Majority Leaders Eric Cantor and Kevin McCarthy.
    We thank you, all three, for being here. If you would, if 
you could summarize in about 5 minutes, we would appreciate it. 
If you have any written materials that you would like to be 
part of the record, we will make them so. And with that, if you 
would just go in the order introduced, we would appreciate it. 
And again, thank you.

   STATEMENT OF HON. DAVID M. SATTERFIELD, ACTING ASSISTANT 
 SECRETARY, NEAR EASTERN AFFAIRS, UNITED STATES DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador Satterfield. Thank you very much, Chairman 
Corker, Ranking Member Menendez, members of the committee. I 
appreciate this opportunity once again to appear to testify on 
this important subject, and I would ask that the submitted 
written remarks be entered into the record.
    The Chairman. Without objection.
    Ambassador Satterfield. Defeating ISIS in Yemen, al Qaeda 
in the Arabian Peninsula, countering Iran's malign activities 
in that region, and above all, reducing the extraordinary 
suffering and hardship of the Yemeni people--all of these goals 
hinge on the resolution to the Yemeni conflict. To that end, 
the United States firmly believes that the only possible 
solution to this conflict is a negotiated political settlement 
under U.S. auspices.
    I want to be clear on this point. Our military support to 
the Saudi-led coalition advances important U.S. national 
security and diplomatic objectives. Further, Iran's support, 
its provision of sophisticated weaponry to the Houthis, both 
exacerbates this conflict and its attendant suffering and 
advances Iran's regional ambitions. The Houthis have repeatedly 
used Iranian ballistic and cruise missile technology and, as we 
saw as recently as April 11th, have targeted Riyadh's 
international airport, Aramco facilities, and Red Sea shipping 
lanes.
    U.S. military support serves a clear and strategic purpose: 
to reinforce Saudi and Emirati self-defense in the face of 
intensifying Houthi and Iranian-enabled threats and to expand 
the capability of our Gulf partners to push back against Iran's 
regionally destabilizing actions. This support, in turn, 
provides the United States access and influence to help press 
for a political solution to the conflict.
    Should we curtail U.S. military support, the Saudis could 
well pursue defense relationships with countries that have no 
interest in either ending the humanitarian crisis, minimizing 
civilian casualties, or assisting and facilitating progress 
towards a political solution. Critical U.S. access to support 
for our own campaign against violent extremists could be placed 
in jeopardy. Through diplomatic and military-to-military 
engagements, we regularly emphasize the strategic importance 
and legal obligations to comply with the Law of Armed Conflict, 
including the obligation to take all reasonable precautions to 
reduce the risk of harm to civilians. And we assess that 
progress has been made as a result of our engagement and 
efforts over the past 6 months.
    During his meeting with President Trump, Saudi Crown Prince 
Muhammad bin Salman agreed that a political resolution to this 
conflict is ultimately necessary to bring greater stability to 
the region and to meet the needs of the Yemeni people. The new 
U.N. Special Envoy to Yemen, Martin Griffiths, has just 
completed initial consultations with key parties to the 
conflict, and we are welcoming him in the State Department very 
shortly. I am and my colleagues will be meeting with him for a 
discussion of where he sees how we assess next steps to 
resolution of the conflict. Our goal collectively is to create 
a framework before entering into comprehensive negotiations, 
which the U.N. would then convene.
    When those formal negotiations do begin, it is important to 
note Saudi Arabia does have vital national security concerns 
that have to be addressed by the Houthis. The Saudis will have 
to make compromises of their own, and we have been quite clear 
on this point. The Houthis will likely retain a political role 
in Yemen. That is a fact and it has to be reflected in any 
negotiating process. And a durable commitment to peace will 
have to involve the buy-in of all key Yemeni parties.
    We all agree the humanitarian crisis in Yemen is 
unacceptable. The U.S. and its allies have worked assiduously 
over the past 6 months to lead the coalition, led by the 
Saudis, to take positive steps on this subject. Last month, the 
Saudis and Emiratis provided nearly $1 billion to Yemen's 
humanitarian response appeal.
    On January 22nd, the Saudi-led coalition announced elements 
of a plan that envisages the expansive use of other ports 
beyond Hudaydah and Saleef and overland points of entry to 
broaden options for importing humanitarian assistance and 
commercial goods into Yemen. We support this. More has to be 
done, and we are pressing the Saudis and the coalition to take 
additional steps to facilitate and expedite access to the Port 
of Hudaydah. We will do all in our power to assure humanitarian 
and commercial needs are met in Yemen so that this crisis from 
its humanitarian standpoint can be alleviated to the maximum 
extent possible.
    And I thank you again for the opportunity to respond to 
your questions.
    [The prepared statement of Ambassador Satterfield follows:]

         Prepared Statement of Ambassador David M. Satterfield

    Chairman Corker, Ranking Member Menendez, Members of the Committee, 
thank you for the opportunity to testify on this important issue. The 
Administration shares your belief that ending the conflict in Yemen is 
in our national security interests.
    As you all have heard, as a response to the heinous and unlawful 
use of chemical weapons, on April 13, the militaries of the United 
States, France, and the United Kingdom executed strikes on three 
chemical weapons facilities involved in the development, production, 
and storage of chemical weapons in Syria. These strikes were focused on 
degrading Syria's chemical weapons capabilities, setting back its 
chemical weapons research and production program, and deterring the 
further use of chemical weapons, consistent with U.S. and our allies' 
policy on Syria, and were taken after considerable deliberation and 
international consultations and coordination.
    The United States has tried repeatedly to use all diplomatic, 
economic, and political tools to stop the Assad regime's use of 
chemical weapons as Assad's supporters turn a blind eye and has chosen 
to use force as a last resort. Russia has stood in the way of every 
effort, vetoed key accountability efforts, blocked the Joint 
Investigative Mechanism, and has failed to live up to its guarantee in 
regard to the 2013 Framework Agreement that Syria would cease all use 
of chemical weapons and fully declare its entire stockpile for 
verifiable destruction. And, Iran acts malignly in Syria--pouring 
resources and militias to support Assad and advance its regional 
ambitions. Against this backdrop, the targeted military action by the 
United States, France, and the United Kingdom against military targets 
connected to the Syrian chemical weapons program was justified and 
legitimate as a measure to deter and prevent Syria's illegal and 
unacceptable use of chemical weapons. This targeted military action 
sends a powerful message to the Syrian regime, Russia, Iran, and 
international community that chemical weapons will never be tolerated 
and there will be consequences for their use.
    Defeating ISIS-Yemen and AQAP, countering Iran's nefarious 
activities in the region, and reducing the suffering of the Yemeni 
people, all hinge on the resolution of this conflict. AQAP, ISIS-Yemen, 
and the IRGC are manipulating the security vacuum created by the 
conflict to expand their influence in Yemen. While the international 
community must do all it can to mitigate humanitarian suffering, the 
only way to truly end the humanitarian crisis is by ending the 
conflict. To that end, the United States firmly believes that the only 
possible solution to the conflict in Yemen is a negotiated political 
settlement under U.N. auspices.
    I wish to be clear; our military support to the Saudi-led Coalition 
supports important U.S. national security and diplomatic objectives. 
Further, Iran's provision of sophisticated weaponry to the Houthis both 
exacerbates this conflict and advances Iran's regional ambitions. The 
Houthis have repeatedly used Iranian ballistic missile and cruise 
missile technology and, as we saw as recently as April 11, have 
targeted Riyadh's international airport, Aramco facilities, and Red Sea 
shipping lanes. Moreover, the Houthis launch rockets along and into 
Saudi Arabia's southern border on an almost daily basis. Over 80,000 
U.S. citizens live in Saudi Arabia. In this context, U.S. military 
support serves a clear purpose: to reinforce Saudi and Emirati self-
defense in the face of intensifying Houthi threats and to expand the 
capability of our Gulf partners to push back against Iran's regionally 
destabilizing actions. This support, in turn, provides us access and 
influence to push for a political solution to the conflict.
    Curtailing U.S. military support would not persuade the Saudi-led 
coalition to abandon its air campaign. If we curtail U.S. military 
support, the Saudis could well pursue defense relationships with 
countries that do not have an interest in ending the humanitarian 
crisis, minimizing civilian casualties, or making progress towards a 
political solution. Critical U.S. access to support for our own 
campaign against violent extremists could be placed in jeopardy. We are 
serious about working to reduce collateral casualties. U.S. advisors 
have provided training to senior Saudi military personnel, including on 
the importance of adhering to the law of armed conflict (LOAC). Through 
diplomatic and military-to-military engagements, we regularly emphasize 
the strategic importance and legal obligations to comply with the LOAC, 
including the obligation to take all feasible precautions to reduce the 
risk of harm to civilians. We assess that progress has been made over 
the past 6 months.
    The Saudis accept that a political solution to the conflict in 
Yemen must be attempted and have asked for U.S. support in renewing a 
political process. During his meeting with President Trump, Saudi Crown 
Prince Muhammad bin Salman agreed that a political resolution to the 
conflict is ultimately necessary to bring greater stability to the 
region and meet the needs of the Yemeni people. New U.N. Special Envoy 
to Yemen, Martin Griffiths, just completed initial consultations with 
the key parties to the conflict, including the Republic of Yemen 
Government and the Houthis. The goal is to create a framework for 
success before entering into comprehensive negotiations, which the U.N. 
would convene. Saudi leadership has engaged with Griffiths.
    Martin Griffiths will be in Washington tomorrow. I will chair an 
interagency meeting with him in which we get his views on the way 
forward and then work with the Coalition to push ahead on a political 
process. We will be consulting closely with the U.K., the Saudis, and 
the Emiratis in coming weeks.
    When formal negotiations do begin, it is important to note that 
Saudi Arabia has vital national security concerns that must be 
addressed by the Houthis. The Saudis have consistently articulated an 
end-state for Yemen as a complete cessation to cross-border ballistic 
missile attacks; a secure, stable Saudi-Yemeni border; blunting Iran's 
influence in the country; and a stable Yemeni government able to 
provide for its people. We support these ends as well. The Houthis, to 
date and during several months of negotiations in 2016, have been 
unwilling to provide meaningful assurances regarding Saudi Arabia's 
legitimate security concerns.
    The Saudis, of course, have to make compromises of their own, and 
we will continue encouraging them to do so. The Houthis will likely 
retain a political role in Yemen. However, it is important to note that 
this is not a one-sided process. The Houthis will have to make clear 
commitments to respect Saudi security. A durable commitment will have 
to involve the buy-in of key Yemeni parties, including the Republic of 
Yemen Government, the Houthis, and other local Yemeni actors.
    We all agree the humanitarian crisis in Yemen is unacceptable. 
However, the U.S. and its allies have persuaded the Coalition to take 
incremental, but positive steps. Last month, the Saudis and Emiratis 
provided nearly $1 billion to Yemen's humanitarian response. This 
complements the U.S. government announcement of an additional $87 
million (more than $854 million since the beginning of fiscal year 
2017) and an additional $1 billion in pledges from other donors. We 
also worked with the World Food Programme (WFP), the Saudi-led 
Coalition's Evacuation and Humanitarian Operations Cell (EHOC), 
authorities in Dubai, and others to facilitate delivery of the four 
U.S.-funded WFP mobile cranes, which arrived in Hudaydah port on 
January 15. The cranes began offloading supplies at the port on 
February 9. These four 60-ton cranes have the potential to improve 
throughput capacity at the port by as much as 40%, and may cut vessel 
discharge time in half from approximately one week to 3-4 days. We also 
welcomed the announcement on February 6 from the Saudi-led Coalition 
that it had signed a Memorandum of Understanding with the Republic of 
Yemen Government to fund and install cranes at the ports of Aden, 
Mukalla, and Al-Mokha. Beyond humanitarian assistance, we are also 
providing economic and development assistance to help restore critical 
health services, and access to education repair community 
infrastructure, and provide help for the revival of production and 
commercial activities, the collapse of which is a major factor 
contributing to the wide-scale humanitarian disaster.
    On January 22, the Coalition announced elements of its Yemen 
Comprehensive Humanitarian Operations (YCHO) plan. Part of the YCHO 
plan envisions expanding the use of other ports and overland points of 
entry to broaden options for importing humanitarian assistance and 
commercial goods to Yemen. Building the capacity of Yemen to import 
more goods is a worthy long-term endeavor and we welcome the 
Coalition's efforts on that front; meanwhile, we continue to stress 
that increasing capacity through other ports or via land routes cannot 
replace key Houthi-controlled ports such as Hudaydah and Saleef, given 
immediate humanitarian needs. Of course, we agree that more must be 
done and are pushing the Saudis to take additional steps to increase 
access--not nearly enough ships are dropping off supplies at Hudaydah 
port. This is due primarily to uncertainty regarding the port's status 
and long clearance processes. We continue to urge the Coalition to make 
a clear statement to shippers that Hudaydah port will remain open. 
However, even here, progress is being made: The Saudis have increased 
their engagement with the U.N. Verification and Inspection Mechanism 
for Yemen (UNVIM) and are working to improve internal clearance times 
and procedural hurdles in coordination with the U.N. and WFP. The head 
of YCHO plan's implementation affirmed to us a continued commitment to 
improve access.
    Thank you for the opportunity to testify about ongoing efforts to 
end the conflict and mitigate the humanitarian crisis in Yemen. I look 
forward to answering your questions.

    The Chairman. Thank you so much.
    Mr. Jenkins.

 STATEMENT OF ROBERT JENKINS, DEPUTY ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, 
                               DC

    Mr. Jenkins. Chairman Corker, Ranking Member Menendez, 
members of the committee, thank you for the opportunity to 
speak here today alongside my distinguished colleagues from 
State and the Department of Defense.
    I would ask that my written comments be submitted for the 
record.
    Administrator Green likes to paraphrase your fellow 
Senator, John McCain, when he asks our agency, ``The world is 
on fire. What are we going to do about it?'' At USAID, we 
strive to put out those fires. Unfortunately, right now Yemen 
is the single largest humanitarian crisis in the world, and we 
are working hard to put the fires out there, along with our 
interagency colleagues, other donors, and our partners on the 
ground.
    The humanitarian crisis in Yemen is manmade. The current 
conflict has been ongoing for more than 3 years. Violence 
between the Houthis and the Yemeni Government, both backed by 
military support from regional powers, have devolved into a 
civil war among multiple factions. Meanwhile, more than 75 
percent of the country or more than 22 million people, need 
humanitarian assistance. To put that into perspective, that is 
more than the combined populations of Tennessee, New Jersey, 
and Indiana.
    For nearly 4 years, Yemen has wavered on the edge of 
famine. 17.8 million Yemenis are food insecure, including more 
than 460,000 children who are severely malnourished. Food that 
does make it inside is prohibitively expensive, and as over 
half the population is unemployed, this dramatically affects 
what basics people can afford, basics such as food and water. 
Many Yemenis must resort to increasingly severe coping 
mechanisms such as child marriage just to get by.
    This food crisis is made worse by the fact that Yemen is 
currently facing the world's largest cholera outbreak with more 
than 1 million suspected cases due to contaminated drinking 
water, unsafe hygiene practices, the lack of sanitation 
services, and a crippled health care system.
    The conflict has also led to the collapse of the economy, 
which was already one of the poorest in the region. The 
government has not been able to regularly fund the operating 
budgets of key ministries like the Ministry of Health, 
degrading basic services like medical care, sanitation, and 
education.
    In the face of these needs, the United States continues to 
mount a robust humanitarian response working with our partners 
to reach millions with lifesaving aid. Over the last 6 months, 
our partner, WFP, has reached an average of 7 million people 
each month with emergency food assistance. We also worked to 
deliver four U.S.-funded cranes to the Port of Hudaydah, which 
was badly damaged by the conflict.
    USAID is supporting medical services to people in need. We 
are also providing hygiene kits, safe drinking water, and 
improved access to sanitation services to fight malnutrition 
and stave off disease.
    For children especially, the toll of conflict can have 
lasting effects. Our mobile protection teams provide treatment 
to children throughout the country.
    USAID is also providing technical assistance to the Central 
Bank of Yemen to help restore basic functionality of core 
services.
    We are also rehabilitating water systems, getting children 
back to school, and providing school supplies.
    In addition, the U.S. coordinates closely with other 
donors, including the United Kingdom, the European Union, and 
we particularly welcome the recent pledges from Saudi Arabia, 
the United Arab Emirates, and Kuwait of more than $1 billion 
towards the humanitarian response in Yemen.
    Despite our best efforts, access remains a major challenge 
in Yemen. To reach people in need, relief workers must navigate 
active conflict zones, checkpoints, bureaucratic impediments, 
and heavily damaged infrastructure. The vast majority of goods 
come through Yemen's ports, so their operations are critical 
for both humanitarian and commercial goods. We continue to call 
on all parties in the conflict to allow free and unfettered 
access for humanitarian goods into and throughout Yemen in 
order to save lives and reduce suffering.
    While the United States remains committed to relieving the 
suffering of the Yemeni people, humanitarian alone cannot solve 
this conflict. This will only come through a comprehensive 
political agreement. We look forward to a day when there is a 
lasting political solution in Yemen that will allow the 
fighting to end and enable the country to develop its own path 
to self-reliance.
    Addressing the complex crisis in Yemen requires all of our 
government's tools: humanitarian assistance, and the three D's 
of development, diplomacy, and defense. That is why I am 
grateful you have called all of us here today, and I am happy 
to take your questions. Thank you.
    [The prepared statement of Mr. Jenkins follows:]

                  Prepared Statement of Robert Jenkins

    Senator Corker, Ranking Member Menendez, Members of the Committee, 
thank you for the opportunity to speak with you today, alongside my 
distinguished colleagues from the Departments of State and Defense. Our 
Administrator, Mark Green, likes to paraphrase your fellow Senator John 
McCain, when he asks of our Agency, ``The world is on fire. What are we 
going to do about it?'' We at USAID strive to put out those fires. 
Unfortunately Yemen is now the single largest humanitarian crisis in 
the world and we are working hard to put out the fires there. Along 
with our interagency colleagues, other donors and our implementing 
partners who work tirelessly every day in Sana'a, in Taiz, in Aden, we 
have sought to address these dire needs, which I will speak to today. 
We are also looking towards a day when there is a lasting, political 
solution in Yemen that will allow the fighting to end and enable the 
country to develop its own path towards self-reliance. Until that day 
comes, we must do all that we can to alleviate the human suffering we 
see in Yemen, as both a moral and national security imperative.
    The humanitarian crisis we see in Yemen today is exacerbated by the 
Yemeni Government's collapse in parts of the country. The current 
conflict has been ongoing since Houthi attacks against the Yemeni 
Government began nearly four years ago. This violence between the 
Houthis, armed by the Iranian regime, and Yemeni Government forces, 
backed by military support from Saudi Arabia and the United Arab 
Emirates, has devolved into a civil war amongst multiple, growing 
factions, driven in part by regional powers. Political instability, a 
security vacuum, and fractured governance have allowed extremist groups 
to expand their areas of influence. Meanwhile, more than 75 percent of 
the country--or more than 22 million people--need humanitarian 
assistance. To put that into perspective, that's more than one and a 
half times the entire populations of Tennessee and New Jersey, 
combined.
    The ongoing conflict has resulted in an estimated 10,000 civilian 
deaths and is also the reason why 2 million people are still unable to 
return home after fleeing for safety. Fighting has hampered commercial 
trade, which is devastating in a country that traditionally imports 90 
percent of its food and most of its fuel and medicine. Infrastructure 
has been destroyed, leaving 16 million people without access to clean 
water or working toilets. Salaries aren't getting paid. These 
conditions are unlikely to change unless until there is durable 
political resolution to the conflict. It is imperative that all parties 
to the conflict protect civilians and aid workers, who work at great 
personal risk to assist people in need.
                  looming famine in a man-made crisis
    Food insecurity in Yemen has wavered on the edge of famine for more 
than 3 years largely due to the war's impact on import trade and 
financial system. Of the 17.8 million Yemenis who are food insecure, 
there are more than 460,000 children who are severely malnourished. 
Food that does make it to market is increasingly expensive, with some 
items doubling in price as supplies are unpredictable. As over half the 
population is unemployed, these price increases dramatically affect the 
amount of basic necessities people can afford, including food and 
water. As the conflict goes on, the worst-affected households are 
forced to take sell assets and incur debt; eventually, they could 
experience famine conditions even without additional disruptions to 
imports and humanitarian assistance.
    Despite these dire conditions, humanitarian actors on the ground 
are providing food assistance to millions every month, across the 
country, and this has helped keep Yemen from falling over that edge. 
For all the hungry Yemenis, who do not know how they will afford bread 
or who are dependent on food aid, being on the edge is tragic enough.
                      health impacts of the crisis
    Four years of conflict have disrupted more than Yemen's food 
supply. During a major food crisis like this, preventable disease is 
often the leading cause of death. In many cases, diseases like cholera 
also inhibit the ability to treat malnutrition, and must be treated 
first.
    The ongoing conflict has left Yemen's health system heavily reliant 
on humanitarian aid to maintain routine services. Half of the health 
facilities are not fully operational and more than 16 million people 
are unable to access basic health care.
    Yemen is currently facing the world's largest cholera outbreak. 
There are more than 1 million suspected cases and the outbreak has 
claimed the lives of nearly 2,300 people. Contaminated drinking water, 
unsafe hygiene practices, a lack of sanitation services, and a crippled 
health care system are big contributors to the rise of cholera in 
Yemen. Although new cases have been declining since October, the rainy 
season could lead to resurgence. And while there are considerable 
emergency efforts to contain the current outbreak, until the conflict 
subsides and longer-term prevention programs can address these 
underlying conditions that enable cholera to spread, the probability of 
future outbreaks remains high. These conditions also make fertile 
ground for the spread of other diseases. Diphtheria--a highly 
infectious respiratory disease that mainly affects children--has also 
taken hold and has reached more than 1,400 suspected cases.
             erosion of infrastructure and financial system
    The conflict has eroded Yemen's infrastructure and financial 
system, in a country that was already amongst the poorest in the region 
before the recent crisis. Between 2015 and 2017, Yemen's economy 
contracted by over 47 percent, according to official Yemeni government 
sources. Yemen is facing a major liquidity crisis and the banking 
system is in turmoil. Oil and gas exports, which were previously a key 
source of foreign exchange, have largely come to a halt and public 
expenditure has fallen steeply. Vulnerable Yemenis are forced to resort 
to increasingly desperate measures, such as child marriage, in order to 
secure household financial needs. This is aggravated by the Central 
Bank of Yemen's (CBY) lack of capacity and connectivity with Houthi-
controlled Sana'a, which precludes it from performing basic functions 
and addressing larger monetary policy challenges. For example, the CBY 
is unable to manage monetary circulation across the country, perform 
basic banking supervision functions, or conduct transparent foreign 
exchange operations. As a result, salaries to more than 1 million 
government workers, including doctors and sanitation workers, haven't 
been paid consistently in 20 months, leaving a quarter of the 
population without a regular income. The government hasn't been able to 
regularly fund the operating budgets of key ministries, like the 
Ministry of Health, severely degrading the very fabric of basic 
services like medical care, sanitation, and education.
    The effect on Yemenis' livelihoods and ability to support 
themselves and their families has been dire. Businesses have laid off 
over half their workers and agricultural activity--one of the main 
sources of employment for Yemenis--has been slashed in half. According 
to the U.N.'s Food and Agriculture Organization, up to 45 percent of 
households have lost livestock, either selling them off intentionally 
to cover other basic or due to animal diseases.
    The conflict is also throwing the future of Yemen's youth into 
jeopardy: Up to 2,500 schools can no longer be used because they are 
destroyed, damaged, host displaced families, or are occupied by the 
warring parties. These and other challenges have left 2 million 
children--over a quarter of Yemen's school-aged children--without 
access to schooling.
                         united states response
    In the face of these needs, the United States and our partners are 
able to reach millions of people with life-saving aid, and the United 
States continues to mount a robust humanitarian response. Since the 
start of Fiscal Year 2017, USAID has provided more than $800 million in 
humanitarian assistance. Over the last 6 months, USAID's partner the 
World Food Programme (WFP) has consistently reached an average of 7 
million people each month with emergency food assistance. These 
programs provide in-kind food aid, food vouchers, and nutrition 
services.
    We also helped deliver four U.S.-funded mobile cranes to assist in 
throughput at Hudaydah port to replace cranes that were damaged from 
the conflict. The cranes arrived in Hudaydah port on January 15th and 
after obtaining required customs clearance and insurance, they 
offloaded their first supplies on February 9th. These cranes can 
increase port capacity by as much as 40 percent and cut vessel 
discharge time in half.
    In response to the ongoing health crisis in Yemen, USAID is 
providing medical supplies, and supporting mobile health clinics to 
bring much-needed emergency medical services to people in need. We are 
also providing hygiene kits, safe drinking water, and improved access 
to sanitation services to fight malnutrition and stave off disease. 
USAID is supporting 70 cholera treatment centers and 110 oral 
rehydration centers to ensure that people get the medical attention 
they need, and has provided nearly 7.4 million water purification 
tablets--enough to provide safe drinking water to nearly 838,000 people 
for one month.
    For children especially, the toll of conflict can have lasting 
effects. Our mobile protection teams provide treatment to children 
throughout the country.
    In addition, the U.S. coordinates closely with other donors, 
including the United Kingdom's Department for International Development 
(DFID) and The European Committee on Humanitarian Operations (ECHO). 
The U.S. particularly welcomes the recent pledges from the Kingdom of 
Saudi Arabia, United Arab Emirates, and Kuwait of more than $1 billion 
to fund the humanitarian response in Yemen. Contributions from other 
countries ensure that more needy Yemenis receive life-saving aid and 
complement the support provided by the United States.
    There is no doubt that our humanitarian programs are saving lives. 
According to the Famine Early Warning Systems Network (FEWSNET), 
without the large-scale, international humanitarian assistance 
currently being provided to partners in Yemen, the food security 
situation would be significantly worse across Yemen. FEWSNET also 
predicts a credible threat of famine this year, if imports decrease and 
markets are further restricted.
    Humanitarian assistance is critical in Yemen, but on its own will 
not prevent the collapse of key social and economic institutions, stem 
the tide of conflict, or build the resilience of Yemen to future 
shocks. For this reason, USAID is also expanding its assistance beyond 
emergency needs to better align with the scale of the crisis and help 
put the country on a path to recovery and prevent continued dependence 
on humanitarian aid. We are doing so under the umbrella of a flexible, 
strategic approach that emphasizes adaptability and learning and in 
close coordination with USAID's humanitarian offices and with other 
donors.
    To address the financial and longer-term needs, USAID is providing 
technical assistance to the CBY to help restore basic functionality in 
its core services. We are also working at the local level to help 
Yemenis restore their access to income in sustainable ways through 
livelihood and employment generation activities. Through our partners, 
we're helping improve basic health services like childhood 
immunization, primary and health care for mothers and children. We're 
also rehabilitating water systems, restoring access and re-entry to 
basic education along with providing school supplies, and providing 
psychosocial support for children impacted by the crisis that has 
interrupted their childhood.
    Looking forward, if there are openings in the future, we are 
preparing a series of additional activities that would support 
stabilization and restoration of essential services in Yemen, as well 
as address community level fragility and social cohesion. By addressing 
these underlying conditions, we can empower Yemenis to build a 
sustainable future.
                  ongoing challenges to providing aid
    Despite the efforts by USAID and its partners operating on the 
ground, we face significant challenges in providing assistance to those 
in need. To reach these people, our humanitarian partners navigate 
active conflict zones, checkpoints, bureaucratic impediments, and 
heavily damaged infrastructure. The biggest challenge we face is 
access. Because of the security concerns, armed actors, and shifting 
lines of conflict, relief workers have a very difficult time gaining 
access to those who need help the most.
    Another challenge is the ability for importers to bring in 
commercial goods, critical to the meet the needs in this country that 
relies so heavily on commodities from elsewhere. Since Yemen has 
traditionally imported 90 percent of its food and most of its fuel and 
medicines, overall and imported the majority through Yemen's largest 
port, Hudaydah, keeping this port open is critical to both humanitarian 
response and commercial imports. With millions of people in Yemen on 
the brink of famine, a closure of the largest port Hudaydah would have 
dire consequences in an already critical situation. While the port is 
now open, import levels at all of Yemen's Red Sea ports have yet to 
recover following November 2017 Coalition-imposed closures, as 
commercial shipping companies remain concerned about the potential 
reinstatement of port restrictions and the Houthis continue attacks 
against Red Sea shipping. We continue to call on all parties to the 
conflict to allow unfettered humanitarian access into and throughout 
Yemen, in order to save lives and reduce suffering.
                       the path forward for yemen
    While the United States remains committed to relieving the 
suffering of the Yemeni people, humanitarian assistance alone cannot 
provide a solution to this conflict. This solution will only come 
through a comprehensive political agreement, and we fully support the 
work of our colleagues at the State Department, and the U.N. Special 
Envoy to Yemen toward that end. Addressing the complex crisis in Yemen 
requires all of the U.S. Government's tools: humanitarian assistance, 
and the three D's of development, defense, and diplomacy, so I'm 
grateful that you've called us all before you today. Thank you for your 
time, and I look forward to answering your questions.

    The Chairman. Thank you very much.
    Secretary Karem.

    STATEMENT OF HON. ROBERT S. KAREM, ASSISTANT SECRETARY, 
  INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Karem. Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee, thank you for the 
opportunity to testify here today. As a former Senate and House 
staffer, it is a particular honor to get to appear before you, 
although I must say it is somewhat more nerve-wracking to 
appear on this side of the dais.
    I would ask that my prepared opening statement be 
introduced for the record. I have what is, I hope, a mercifully 
brief introductory comment to make.
    As Secretary Mattis has said many times, our goal in Yemen 
is an end to the conflict through a United Nations-brokered 
settlement. The conflict in Yemen affects regional security 
across the Middle East and threatens U.S. national security 
interests, including the free flow of commerce in the Red Sea. 
Just this month, the Houthis attacked a Saudi oil tanker in the 
Red Sea, threatening commercial shipping and freedom of 
navigation in the world's fourth busiest maritime chokepoint, 
the Bab el Mandeb.
    This conflict has unleashed a humanitarian toll on Yemeni 
civilians, as my colleagues from the State Department and USAID 
have already mentioned. This is why Secretary Mattis believes 
strongly that the efforts of the new U.N. Special Envoy, Martin 
Griffiths, to bring all sides of the conflict to the 
negotiating table are so important. Indeed, we need a stable, 
inclusive government in Yemen to provide security to the Yemeni 
people and to reduce and ultimately eliminate terrorist state 
safe havens that are being used by al Qaeda in the Arabian 
Peninsula, AQAP, and ISIS in Yemen.
    A political solution to the Yemen conflict will also reduce 
the chaos that Iran has exploited to advance its malign agenda. 
With help from Iran, the Houthis have launched more than 100 
ballistic missiles and countless rockets into Saudi Arabia 
directed at major population centers, international airports, 
military installations, and oil infrastructure. In the last 
month alone, the Houthis have launched more than 13 ballistic 
missiles and long-range rockets into Saudi Arabia.
    Mr. Chairman, I would invite you and all of the members of 
the committee to visit the Iranian materiel display at Joint 
Base Anacostia-Bolling to see firsthand the Iranian-
manufactured ballistic missile that was launched at Riyadh 
International Airport in November 2017, as well as other 
evidence of Iran's support to the Houthis and its efforts to 
destabilize the region. Yemen has become a test bed for Iran's 
malign activities.
    Mr. Chairman, the Defense Department is currently engaged 
in two lines of effort in Yemen. Our first line of effort and 
our priority is the fight against al Qaeda in the Arabian 
Peninsula and ISIS in Yemen, two terrorist organizations that 
directly threaten the United States, our allies, and our 
partners.
    To combat AQAP and ISIS, U.S. forces, in coordination with 
the U.N.-recognized Government of Yemen, are supporting our 
regional counterterrorism partners in ongoing operations to 
disrupt and degrade their ability to coordinate, plot, and 
recruit for external terrorist operations. Additionally, U.S. 
military forces are conducting airstrikes against AQAP and ISIS 
in Yemen, pursuant to the 2001 authorization for the use of 
military force, to disrupt and destroy terrorist networks.
    Our second line of effort is the provision of limited, non-
combat support to the Saudi-led coalition in support of the UN-
recognized Government of Yemen. This support began in 2015 
under President Obama, and in 2017, President Trump reaffirmed 
America's commitment to our partners in these efforts. Fewer 
than 50 U.S. military personnel work in Saudi Arabia with the 
Saudi-led coalition advising and assisting with the defense of 
Saudi territory, sharing intelligence, and providing logistical 
support, including aerial refueling. The objective of this 
support is to build our partners' capacity and enable them to 
defend themselves and maintain their own security.
    As I noted before, Houthi missile attacks pose a very real 
threat to Saudi Arabia and the UAE and to freedom of navigation 
in the Red Sea. The Houthi rebellion, facilitated by Iran, also 
continues to pose a threat to the Yemeni people. In addition to 
exacerbating the civil conflict, the Houthis use child 
soldiers, disrupt and commandeer the distribution of 
humanitarian aid and commercial goods, and exploit the 
deliveries of aid for their own financial purposes.
    With regard to noncombatant casualties, U.S. military 
support to our partners is always geared towards mitigating 
noncombatant casualties. U.S. advisors provide best practices 
on avoiding collateral damage and U.S. aerial refueling allows 
coalition aircraft to spend more time in the air giving our 
partners time to validate targets, practice tactical patience, 
and reduce the risk of noncombatant casualties. We also 
continue to urge the coalition to allow full access to 
humanitarian and commercial goods and are encouraged by recent 
steps that our partners have taken to provide more than $1 
billion in humanitarian relief.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Karem follows:]

                   Prepared Statement of Robert Karem

    Chairman Corker, Ranking Member Menendez, and distinguished Members 
of the Committee. Thank you for the opportunity to testify on our Yemen 
policy. I welcome discussion on this important issue.
                           strategic overview
    As Secretary Mattis has said many times, our goal in Yemen is an 
end to the conflict through a United Nations (U.N.)-brokered 
settlement. The conflict in Yemen affects regional security across the 
Middle East and threatens U.S. national security interests. We need a 
stable, inclusive government in Yemen to provide security to the Yemeni 
people and to reduce and ultimately eliminate terrorist safe havens 
that are being used by al-Qaeda in the Arabian Peninsula (AQAP) and the 
Islamic State of Iraq and Syria in Yemen (ISIS-Y) to plot against the 
American people and our allies and partners. Finding a political 
solution to the Yemen conflict will also help counter Iran by reducing 
the chaos in which it thrives. Ultimately, Iran has fueled and 
exploited this conflict, and ending it will help to reduce 
opportunities for Iran's malign activities.
    The Administration's policy goals in Yemen are to prevent terrorist 
attacks on U.S. interests and allies, end the civil war, avoid a 
regional conflict, mitigate the humanitarian crisis, help defend Saudi 
Arabia's territorial integrity, and protect the free flow of commerce 
in the Red Sea. We support the new U.N. Special Envoy, Martin 
Griffiths, in his attempts to revive the U.N.-led peace process in 
Yemen.
    President Obama first directed U.S. military support to the Saudi-
led Coalition in 2015, after the Houthis, along with forces aligned 
with former Yemen President Saleh, broke their truce with the 
internationally-recognized President of Yemen Abd-Rabbu Mansour Hadi, 
and stormed the Presidential palace in Sana'a. President Hadi escaped 
and fled to Aden and ultimately to Saudi Arabia. At President Hadi's 
request, Saudi Arabia formed an international coalition to help restore 
government control, and DoD began providing limited, non-combat support 
to that Coalition. The U.N. Security Council also passed Resolution 
2216, condemning the takeover of Sana'a and calling on Houthi-Saleh 
forces to turn over looted weapons, withdraw from Sana'a, and begin 
political discussions.
    The Houthis, supported by Iran, continue to pose a threat to the 
Yemeni people, to the Coalition, to Americans in the region, and to 
regional security. In addition to exacerbating the civil conflict, the 
Houthis use child soldiers, disrupt the flow of commercial goods, and 
charge additional tariffs and taxes on essential goods for their own 
financial gain. The Houthis also directly threaten the security of 
Saudi Arabia. To date, the Houthis have launched more than 100 
ballistic missiles into Saudi Arabia, directed at major population 
centers, international airports, and military installations, including 
bases where U.S. forces are present. They have also fired countless 
rockets into southern Saudi Arabia and continue to occupy Saudi 
territory along the Yemeni border. Just this month, the Houthis 
attacked another Saudi oil tanker in the Red Sea, threatening 
commercial shipping and freedom of navigation in the world's fourth 
busiest maritime chokepoint. For Saudis and Emiratis, whose citizens 
are under attack or threat of attack from Iranian-backed forces, the 
conflict in Yemen is a core national security interest.
                        counterterrorism efforts
    The Department's first line of effort in Yemen is the fight against 
terrorist organizations that threaten U.S. national security interests 
in the region and at home. AQAP continues to pose a significant threat 
to the American people by plotting attacks against the homeland, while 
ISIS-Y aims to use the ungoverned spaces of Yemen to plot, direct, 
instigate, supply, and recruit for attacks in the region.
    To combat AQAP and ISIS-Y, a small number of U.S. forces, in 
coordination with the internationally-recognized Government of Yemen, 
are supporting our regional counterterrorism partners in ongoing 
operations to degrade the groups' abilities to coordinate external 
terrorist operations and blunt their aspirations to use Yemen as a safe 
haven for terror plotting. Additionally, U.S. forces are conducting 
airstrikes against AQAP and ISIS-Y pursuant to the 2001 Authorization 
for Use of Military Force, to disrupt and destroy terrorist leadership 
networks and limit their freedom of maneuver within the region. Our 
partners provide critical assistance to our counterterrorism efforts 
and, like us, they are determined to rid Yemen of these terrorist 
groups while setting the conditions for a stable environment that does 
not provide safe haven for terrorist groups or activity.
                u.s. support to the saudi-led coalition
    Our second line of effort includes providing limited, non-combat 
support to the Saudi-led Coalition in support of the internationally-
recognized Government of Yemen. This support began in 2015 under 
President Obama, and in 2017, President Trump reaffirmed our commitment 
to our partners in their efforts. Fewer than 50 U.S. military personnel 
work in Saudi Arabia with the Saudi-led Coalition advising and 
assisting with the defense of Saudi territory, sharing intelligence, 
and providing logistical support, including aerial refueling.
    U.S. forces are not participants in the civil conflict in Yemen and 
are not engaged in hostilities against the Houthis. U.S. military 
support to the Coalition is consistent with the National Defense 
Strategy. We are working to support our partners' military efforts to 
defend themselves and maintain their own security. This support helps 
improve our bilateral and regional partnerships, bolster our partners' 
defense, and increase burden sharing.
    We are focused on helping the Coalition avoid civilian casualties 
in Yemen. We recognize that this conflict has taken a drastic toll on 
the Yemeni people. We believe that working with our Saudi and Emirati 
counterparts helps mitigate the risk of civilian casualties. U.S. 
military advisors are focused on helping Coalition forces implement 
best practices and procedures to reduce civilian casualties and 
collateral damage. Aerial refueling allows Coalition aircraft to spend 
more time in the air, thus giving our partners time to validate 
targets, practice tactical patience, and reduce the risk of civilian 
casualties.
    We are seeing incremental improvements to our partners' processes 
and procedures. The Coalition has incorporated the No Strike List into 
its target development procedures, stopped the use of cluster 
munitions, changed its rules of engagement to incorporate U.S. best 
practices, and increased its use of precision-guided munitions, which 
help decrease civilian casualties and collateral damage. We can only 
help avoid unnecessary loss of life if we continue to engage with these 
partners to improve their practices.
            u.s. efforts to mitigate the humanitarian crisis
    The U.S. government is also working to mitigate the humanitarian 
crisis caused by the conflict. The United States has provided more than 
$854 million in humanitarian assistance since October 2016, including 
nearly $87 million in additional funding this month. We are also 
providing $55 million in economic and development assistance, which 
have been notified to Congress, to help lay a foundation for Yemen's 
recovery, including through programs to support livelihoods, 
rehabilitate critical infrastructure, such as water systems, and 
restore access to education so children can learn and prepare for their 
future. The U.S. government continues to urge all parties to allow 
humanitarian and commercial goods, including fuel, to enter Yemen and 
move unhindered throughout the country, while also allowing 
humanitarian workers to move freely and safely to deliver assistance.
          consequences of reducing or withdrawing u.s. support
    DoD strongly opposes any reduction or withdrawal of U.S. support to 
the Saudi-led Coalition. It bears repeating: we can only help influence 
a positive outcome in Yemen by engaging with our partners. To leave our 
partners to face this threat without our support would risk greater 
escalation and attendant harm to civilians. Further, if we hope to 
encourage a political settlement, we must have influence with our 
partners in the region. Our support shows we take seriously our 
partners' struggle against a real security threat to the region--
thereby strengthening our broader argument that only a political 
solution will end the conflict.
    With Iran's support, the Houthis have exacerbated this civil war 
and raised the risk of a larger regional conflict. The Houthis have 
used, with Iranian material and expertise: (1) sophisticated ballistic 
missiles to attack major Saudi population centers; (2) missiles to 
attack commercial vessels in the Red Sea; (3) explosive boats to attack 
military vessels in the Red Sea; and (4) explosive UAV attacks against 
civilian targets in Saudi Arabia. Consistent with the National Security 
Strategy's call to neutralize Iran's destabilizing activities, DoD is 
committed to working with our partners and allies to prevent 
proliferation from Iran. Mr. Chairman, I invite you and the other 
members of the committee to see first-hand evidence of Iranian 
complicity by visiting the Iranian Material Display at Joint Base 
Anacostia-Bolling. This display includes the Iranian-manufactured 
ballistic missile launched at Riyadh International Airport in November 
2017, Unmanned Aerial Vehicles, and explosive boat components.
                               conclusion
    Mr. Chairman, let me conclude by emphasizing our respect for 
Congress's important oversight role in the use of military force. We 
have shared the Administration's legal analysis regarding U.S. non-
combat support to the Saudi-led coalition, and I would like to 
reiterate that U.S. forces are not engaged in hostilities in the civil 
conflict in Yemen.
    Instead, we view our U.S. military support to the Saudi-led 
Coalition in Yemen through the lens of the National Defense Strategy. 
As our partners help us with our strategic priorities in the region--
especially in countering AQAP, ISIS-Y, and other violent extremist 
organizations--we enable them to combat the current highest threat to 
their security, attacks against their territory. Working with our 
partners to mitigate and reduce the risks of a regional conflict will 
also create opportunities to counter the regional purveyors of 
instability, namely Iran.
    In this light, withdrawing our support to the Saudi-led Coalition 
could threaten our other defense relationships and weaken our global 
reputation as a reliable partner. This would constrain the U.S. 
military's ability to foster long-term relationships, to increase 
interoperability, to promote burden sharing, and to build strong 
security partnerships throughout the world.
    I ask for your continued support to the Department as we work to 
enable our partners.
    Thank you again for the opportunity to testify. I look forward to 
your questions.

    The Chairman. Thank you. Thank you all for being here.
    And with that, I will defer for interjections along the 
way. Senator Cardin.
    Senator Cardin. Well, thank you.
    I want to thank all three of our witnesses from State, 
USAID, and the Department of Defense for your work. You have 
outlined goals for the United States, including ending the 
civil war through diplomacy, because as you point out, that is 
the only way we are going to have a lasting peace in Yemen, the 
security of our partners, particularly the security of the 
Kingdom of Saudi Arabia, and to recognize the Iran malign 
influence and dealing with that, and addressing the 
humanitarian crisis, including civilian casualties, and the 
response to the civilian population.
    So, Mr. Karem, I want to start with you in regards to the 
U.S. military assistance that we give to the Kingdom. You said 
that is to embolden their capacity and to reduce noncombatant 
casualties.
    Last March, the CENTCOM Commander, General Votel, stated 
that the United States Government does not track the end 
results of the coalition missions it refuels and supports with 
targeting assistance.
    So my question to you is how do you determine that we are 
effectively reducing the noncombatant casualties if we do not, 
in fact, track the results of the Kingdom's military actions?
    Mr. Karem. Senator, thank you.
    It is correct that we do not monitor and track all of the 
Saudi aircraft aloft over Yemen. We have limited personnel and 
assets in order to do that, and CENTCOM's focus has obviously 
been on our own operations in Afghanistan, in Iraq, and in 
Syria.
    Senator Cardin. I understand that. But my question is our 
stated mission is to reduce noncombatant casualties. If we do 
not track, how do we determine that?
    Mr. Karem. So I think one of our stated missions is 
precisely that. There are multiple ways that I think we do have 
insight into Saudi targeting behavior. We have helped them with 
their processes. We have seen them implement a no strike list, 
and we have seen their capabilities improve.
    Senator Cardin. So the information is based upon what the 
Saudis tell you how they are conducting the mission rather than 
the after-impact of the mission?
    Mr. Karem. I think our military officers who are resident 
in Saudi Arabia are seeing how the Saudis approach this effort.
    Senator Cardin. You know, obviously, the proof is in the 
results, and we do not know whether the results are there or 
not. Is that a fair statement?
    Mr. Karem. I think we do see a difference in how the Saudis 
have operated in Yemen.
    Senator Cardin. I understand how they operate, but we do 
not know whether in fact that has been effective. The United 
Nations Security Council Panel of Experts on Yemen concluded in 
recent reports that the cumulative effect of these airstrikes 
on civilian infrastructure demonstrates that even when 
precautionary measures were taken, they were largely inadequate 
and ineffective. Do you have any information that disagrees 
with that assessment?
    Mr. Karem. Senator, I think the assessment of our Central 
Command is that the Saudi and Emirati targeting efforts have 
improved with the steps that they have taken. We do not have 
perfect understanding because we are not using all of our 
assets to monitor their aircraft, but we do get reporting from 
the ground on what is taking place inside Yemen.
    Senator Cardin. I understand that. And I would just caution 
you to be reserved as to how effective you are in that if you 
do not have direct information about it. The U.S. reputation is 
on the line, and we expect you to know if you report something. 
If you cannot report it, fine, but do not make statements that 
you cannot back up. That would be my caution to the way you 
advertise it.
    I want to ask you one other question, if I might, on Iran's 
influence. How effective have we been in stopping the Iranian 
influence in that region? It seems like they are extremely 
active.
    Mr. Karem. I think it is extraordinarily difficult given 
the breadth of Iran's access throughout the region and how 
aggressive the Iranians have been over many, many years to put 
in place surrogates and access and influence and----
    Senator Cardin. So we are not effective?
    Mr. Karem. No. I think we are increasingly effective. The 
United States cannot do it alone, and in the case of Yemen, we 
are trying to help our partners better combat----
    Senator Cardin. So we think the Iranians are less effective 
supporting the Houthis today than they were 3 months ago or 6 
months ago or a year ago?
    Mr. Karem. I think we are getting better at mobilizing an 
international effort to put pressure on Iran----
    Senator Cardin. Are we better today than a year ago with 
the Iranians?
    Mr. Karem. I think the Iranians are under more pressure 
today, but their ability to operate remains a significant point 
of concern for the United States.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. Thank you for your testimony.
    Ambassador Satterfield, I guess some people, when they 
think about our strategy, might question the idea of our 
strategy. If your son was shooting off his pistol in the back 
yard and doing it indiscriminately and endangering the 
neighbors, would you give him more bullets or less? And we see 
the Saudis acting in an indiscriminate manner. They have bombed 
funeral processions. They have killed a lot of civilians. And 
so our strategy is to give them more bombs not less. And we 
say, well, if we do not give them the bombs, somebody else 
will. And that is sort of this global strategy that many in the 
bipartisan foreign policy consensus have. We have to always be 
involved, and we always have to provide weapons or someone else 
will and they will act even worse.
    But there is, I guess, a lot of examples it does not seem 
to be improving their behavior. You can argue that it is 
marginally better since we have been giving them more weapons, 
but it seems the opposite of logic. You would think you would 
give people less or you might withhold aid or withhold 
assistance to the Saudis to get them to behave. But we do sort 
of the opposite. We give them more aid.
    What would your response be to that?
    Ambassador Satterfield. Senator, when I noted in my remarks 
that progress had been made on this issue of targeting, 
minimizing, or mitigating civilian casualties, that phrase was 
carefully chosen.
    And to elaborate further on my colleague's remarks, Robert 
Karem, we do work with the Saudis and have particularly over 
the last 6 to 9 months worked intensively on the types of 
munitions the Saudis are using, how they are using, how to 
discriminate target sets, how to assure through increased 
loiter time by aircraft that the targets sought are, indeed, 
clear of collateral or civilian damage. This is new. This is 
not the type of interaction that we had with the Saudis during 
the time when those----
    Senator Paul. And yet, the overall situation in Yemen is a 
disaster.
    Ambassador Satterfield. The overall situation is extremely 
bad, Senator.
    Senator Paul. So I guess that is really my question. We 
ought to rethink, and I think from a common sense point of 
view, a lot of people would question giving people who 
misbehave more weapons instead of giving them less.
    On another question, which I think is a broad question 
about what we are doing in the Middle East in general, you 
admitted that there is not really a military solution in Yemen. 
Most people say it is going to be a political solution. The 
Houthis will still remain. We are not going to have Hiroshima. 
We are not going to have unconditional surrender and the good 
guys win and the bad guys are vanquished.
    The same with Syria. Most people said for years, both the 
Obama administration and this administration, probably even the 
Bush administration, this situation will probably be a 
political solution. It is not going to be complete vanquishment 
of the enemy.
    We are also saying that in Afghanistan. I guess my point, 
as I think about that, as I think about the recruiter at the 
station in Omaha, Nebraska, trying to get somebody to sign up 
for the military and saying, please join. We are going to send 
you to three different wars where there is no military 
solution. We are hoping to make it maybe a little bit better. I 
think back to Vietnam. Oh, we are going to take one more 
village. If we take one more village, they are going to 
negotiate and we got a little bit better negotiation. I just 
cannot see sending our young men and women to die for that, for 
one more village.
    You know, the Taliban have 40 percent in Afghanistan. When 
they get to 30 percent, they will negotiate; and it will have 
been worth it for the people who have to go in and die and take 
those villages? I do not think it is worth one more life.
    The war in Yemen is not ours. We talk all about the 
Iranians have launched hundreds of missiles. Well, yes, and the 
Saudis have launched 16,000 attacks. Who started it? It is a 
little bit murky back and forth. The Houthis may have started 
taking over their government, but that was a civil war. Now we 
are involved in it. Who are the good guys? Are the Saudis the 
good guys? Are the others the bad guys? Thousands of civilians 
are dying. Seventeen million people live on the edge of 
starvation.
    I think we need to rethink whether or not military 
intervention, supplying the Saudis with weapons, whether all of 
this makes any sense at all or whether we have made the 
situation worse.
    I mean, humanitarian crisis. We are talking about, oh, we 
are giving them money. The Saudis are giving them money, and I 
am like, okay, so we bomb the crap out of them and then Saudis 
give them $1 billion. Maybe we could bomb less. Maybe part of 
the humanitarian answer is supplying less weapons to a war. 
There is a huge arms race going on. Why do the Iranians do what 
they do? They are evil, or maybe they are responding to the 
Saudis. Who responded first? Who started it? Where did the arms 
race start? But if we sell $300 billion of weapons to Saudi 
Arabia, what are the Iranians going to do? They react. It is 
action and reaction throughout the Middle East. And so we paint 
the Iranians as the evil monster, and we just have to correct 
the evil monster. But the world is a much more complicated 
place back and forth.
    And all I would ask is that we try to get outside our 
mindset that what we are doing is working because I think what 
we are doing has not worked, and we have made a lot of things 
worse. And we are partly responsible for the humanitarian 
crisis in Yemen.
    There is nothing like making a small speech.
    The Chairman. That was very small by Senate standards, but 
thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Secretary Karem, after hearing the answers to Senator 
Cardin's line of questioning, I come to the conclusion that we 
are not measuring success in a way that is meaningful. If you 
do not know what civilian casualties are--we do not measure it, 
as General Votel says--and you said, yes, we do not track all 
civilian casualties from Saudi operations, but we have seen 
them improve targeting behavior. Well, that in and of itself is 
not a way to define a measurement of how we are succeeding in 
reducing civilian casualties. So I find that pretty alarming. 
It is information I wish I had known before.
    Let me ask Secretary Satterfield. Why has the 
administration not used CAATSA authority to impose sanctions on 
Iran for its weapons transfer to the Houthis?
    Ambassador Satterfield. We have sanctioned extensively all 
of the Iranian entities and individuals who are associated with 
the proliferating behaviors that include the transfer of 
weaponry----
    Senator Menendez. Telling me about all the ways we have 
sanctioned Iran--of course, I am very familiar with that. But 
can you cite to me the specific CAATSA authority that was used 
to sanction Iran for weapons transfers to the Houthis?
    Ambassador Satterfield. Senator, they were sanctioned under 
other extant authorities.
    Senator Menendez. Well, I would like you to submit that for 
the record to see what that is.
    Ambassador Satterfield. We can do that, Senator.
    [The Committee Received No Response From Ambassador 
Satterfield.]
    Senator Menendez. Do you believe that U.S. support for 
coalition bombings in Yemen have been an effective way to 
counter Iranian influence in the region?
    Ambassador Satterfield. I believe that the support that we 
have provided to the Saudi-led coalition has advanced the 
Saudis' ability to defend themselves against Iranian 
Revolutionary Guard Corps-enabled Houthi launches into the 
heartland of Saudi Arabia. Yes, sir.
    Senator Menendez. So helping the Saudis is how we, in part, 
counter Iranian influence is what you are telling me.
    Ambassador Satterfield. It is indeed, Senator.
    Senator Menendez. Let me ask you this. Secretary Mattis 
recently said that U.S. policy is calibrated to achieve a 
negotiated settlement in Yemen. I would like to understand more 
about this calibration. There are reports that the Saudi 
coalition will soon start operations to seize the Port of 
Hudaydah, the main port of humanitarian and commercial goods 
into Yemen. Would this operation accelerate prospects for a 
political solution in your view?
    Ambassador Satterfield. It would not, Senator, and we have 
been exceedingly clear with the governments of Saudi Arabia, as 
well as the Emirates.
    Senator Menendez. Will the administration provide military 
support to the coalition if it starts operations to seize the 
port?
    Ambassador Satterfield. We have made clear that the port is 
to be left fully operational.
    Senator Menendez. Other than the rhetorical support for a 
negotiated settlement, what is the administration specifically 
doing to facilitate a negotiated settlement?
    Ambassador Satterfield. Senator, over the course of the 
past year, but particularly since October of last year, we have 
worked extensively with the United Nations, with the Saudis, 
with the Emiratis, as well as with all Yemeni parties to try to 
establish the basis for a resumption of talks, the talks that 
collapsed in 2016. The political picture on the ground in Yemen 
has changed radically with the death, the killing, of Ali 
Abdullah Saleh, with the fragmentation of the General People's 
Congress. All of that, while tragic in many of its dimensions, 
has provided a certain reshuffling of the deck that may, we 
hope, allow the United Nations to be more effective in its 
efforts.
    But throughout this, we have underscored to all the 
parties, the Saudis and the Emiratis in particular, the UN must 
have the ability to conduct negotiations as it chooses with 
those whom it chooses and where it chooses to try to advance a 
political settlement, and we will provide all possible support 
for that.
    Senator Menendez. So we are depending upon the UN to be the 
solution to this process.
    Ambassador Satterfield. The international community has 
placed its support in the United Nations as the best party 
positioned to try to broker a resolution.
    Senator Menendez. And the administration endorses that U.N. 
process.
    Ambassador Satterfield. We do, indeed, Senator.
    Senator Menendez. Okay. It is a new day for the U.N. and 
the United States.
    Now, let me ask you this. While significant culpability is 
attributable to the Saudi coalition for the role in the 
deepening humanitarian crisis in Yemen, the Houthis also bear 
responsibility. Do you agree with that?
    Ambassador Satterfield. I do, sir.
    Senator Menendez. In your view, what actions have the 
Houthis undertaken in Yemen that block humanitarian access and 
violate international humanitarian law?
    Ambassador Satterfield. Senator, the Houthis routinely 
predate aid deliveries coming through land crossings as well as 
through the ports of Hudaydah and Saleef. By predation, I mean 
a variety of measures: skimming, removing, looting aid from 
convoys, taking taxes repeatedly from the drivers and personnel 
of the convoys. The Houthis profit mightily from all commercial 
as well as humanitarian goods that enter Yemen from any 
sources.
    The Houthis, in addition, control the telecommunications 
networks of Yemen from which they also extract revenues. They 
are a predatory body, but they are also part of the political 
situation and must be part of the political solution.
    Senator Menendez. Finally, have the Houthis demonstrated 
commitment or will to proceed with a negotiated settlement of 
the conflict, to your knowledge?
    Ambassador Satterfield. The Houthis have told the United 
Nations, they have told other parties that they do wish to 
participate in a political resolution. It is the testing of 
that proposition that is the challenge before the United 
Nations and all of us.
    Senator Menendez. Thank you.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    You know, they say the most dangerous person in Washington 
is a Senator that just returned from a fact finding mission 
overseas. More dangerous is a Senator who has a Yemeni out in 
the anteroom that he has been talking to all morning long. So a 
lot of the things I am going to ask I am going to act like I 
know what I am talking about, and I think I do. But I have a 
young lady out there who works with CARE USA, which is 
headquartered in Georgia, who has been working with me on this, 
and some of the things I want to bring out I think will help 
answer some of the questions that have been referred to by 
these gentlemen.
    Number one, apparently there are about 22 million Yemenis 
who are in need of aid, either medical aid or nutritional aid 
or some type of other assistance in aid. And there are only 26 
million people there. So it is almost 90 percent of the 
population. Would you agree with that? Anybody? Is that about 
right?
    Mr. Jenkins. Yes. All the numbers that we have for Yemen 
are imprecise given the situation. And we look at about 29 
million people as the full population, and over 76 percent of 
them need humanitarian assistance.
    Senator Isakson. Whatever the numbers, it is big and it is 
the vast majority of the country.
    And the port is the biggest single problem in getting 
humanitarian aid into Yemen. Is that not correct?
    Mr. Jenkins. We have been calling on all parties to make 
sure we can have free and unfettered access through all roads 
and all ports, but Hudaydah Port is the primary point of access 
for up to 80 percent of the cargo that goes into the country.
    Senator Isakson. I am told it is the biggest problem, and 
it is getting bigger.
    Mr. Jenkins. It is not getting bigger, sir. In fact, the 
worst moment came in November of last year when there was a 
coalition-led, coalition-enforced closure of the Red Sea ports. 
Since then, we have seen improvements. There is a ways to go, 
but things have been improving as of late.
    Senator Isakson. Mr. Karem, at the end of the long speech 
made by Senator Paul, who I have great respect for--we disagree 
on certain things, but he was making a good speech and I 
enjoyed it. But he did not ask questions.
    I want to ask a question following up on what he said. He 
was basically saying we have sent a lot of our soldiers into 
battle and battles--winning or losing did not make any 
difference because we never finished the drill and that we have 
in Afghanistan and we have in Yemen and we have other soldiers 
deployed right now who are in battles that we are not going to 
win but we are going to just bring it to a draw. Is that a fair 
way to say it?
    Is there any other way to get a recalcitrant people or 
people who are working against political solutions to the table 
other than a military challenge if you do not have a military 
challenge to force them to the table?
    Mr. Karem. I think you have to use all elements of power to 
bring people to the negotiating table. Sometimes that will be 
predominantly military. Sometimes it can be financial. 
Sometimes it can be diplomatic. In the case of Yemen, I think 
all of these things probably apply.
    But I think there is a difference between Afghanistan, 
where the United States has tens of thousands of soldiers who 
are supporting the Afghan Government, and Yemen, where we are 
not a party to the conflict and are not engaged in hostilities 
except for our relatively narrow counterterrorism efforts.
    Senator Isakson. But there is no question--I am speaking 
for myself now--that at some point in time when you get to 
solving the problems of a conflict overseas that we are in one 
way or the other or observe one way or another through the 
U.N., that some ability for military force, to be an effective 
force to bring about a solution, helps you get to the table to 
get a diplomatic solution rather than ending up having a war to 
solve it or, worse than that, some kind of civil war to solve 
it.
    Mr. Karem. Yes, I agree. And more importantly, all of the 
parties who are fighting in Yemen believe----
    Senator Isakson. What is the background of the U.N. Special 
Envoy that has just been named? Is it an American?
    Ambassador Satterfield. No. He is a U.K. national, Senator. 
He has been involved throughout his life in international peace 
work, a variety of institutions, most of them in the UK who 
bring together negotiators, work on international solutions to 
problems like this.
    Senator Isakson. We need to give him and the U.N. the help 
and encouragement we can to get that done because ultimately 
that is going to--you know, special envoys usually are an 
alternative to solving the problem. They just say we did 
something like what happened in South Sudan and the PCA there. 
But I hope we will work in every way possible to move them 
forward at the U.N. and move the Special Envoy forward to help 
bring that to a conclusion.
    Ambassador Satterfield. That is our intent, sir.
    Senator Isakson. And just on behalf of the USAID people--I 
mean, the CARE USA people are out in the anteroom and my 
friends from Atlanta. CARE does a tremendous humanitarian NGO 
mission all over the world in lots of places, and they are 
doing a tremendous one in Yemen. It is horrible when you get a 
situation where they cannot even get well-intended aid and 
medical supplies to the people who need it because we do not 
have enough security to even get them that access. I have been 
to Darfur and seen what that can mean. It is horrible. So I 
hope we will do everything we can to get the NGOs that are 
trying to get the aid to the 23 million Yemenis who are deep 
trouble nutritionally and health-wise to them as quickly and 
expeditiously as possible.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, for holding this 
hearing and thank you to our witnesses for being here to 
testify and for your efforts to address the crisis in Yemen, 
which has truly taken a horrific toll on millions of innocent 
men and women there and particularly children.
    I am disappointed that the Senate has not yet made a 
decisive statement about the need to influence Saudi-led 
operations and to protect those innocent civilians in Yemen. I 
think it is long past time we send a message to the leadership 
of Saudi Arabia that we have high expectations for our allies, 
particularly those who are receiving military support.
    So, Ambassador Satterfield, do you believe that the Saudi-
led coalition is engaged in urgent and good faith efforts to 
negotiate an end to the civil war in Yemen?
    Ambassador Satterfield. Senator, the Saudi-led coalition, 
primarily Saudi Arabia and the United Arab Emirates, accept at 
the highest levels the proposition that there is only 
ultimately a political solution to this conflict. And that was 
reiterated most recently by Crown Prince Muhammad bin Salman 
during his visits here in Washington.
    We operationally try to implement that rhetorical 
understanding in terms of the active support which the U.N. 
needs from both the Emirates and the Saudis for their mission 
to be successful. Now, over the course of the past 6 months, 
from a crisis point in October and November when things looked 
very dark indeed, we have, indeed, seen a more receptive 
approach by the Saudis, by the Emiratis certainly to this 
concept of supporting, genuinely supporting and facilitating 
the UN's mediating efforts. Yes.
    Senator Shaheen. Thank you. That is good to hear.
    Mr. Jenkins, you talked about pledges I think you said from 
the UAE and the Saudis--did you mention anyone else--of $1 
billion in aid. Has any of that aid actually been forthcoming 
to date?
    Mr. Jenkins. Yes, thank you for the question.
    On April 3rd in Geneva, there was a pledging conference 
where over $2 billion was pledged against the $3 billion that 
the United Nations is looking for, for this year. Of that, 
Saudi Arabia and UAE pledged $920 million, and as of this week, 
all of that has arrived within the bank accounts of the United 
Nations, which we are very happy to see. Kuwait also pledged a 
significant amount, as well as the UK and the EU. All of this 
is very heartening for us as we look at the vast needs to see 
that now with all the pledges, when they come in--that is two-
thirds of the appeal. This long into the year, that is very 
heartening. However, there is going to continue to be great 
needs and need for more assistance.
    Senator Shaheen. And how long is it going to take to get 
that aid out into the field so it is helping people?
    Mr. Jenkins. So we are very thankful, particularly because 
the Saudis and the Emirates have provided all of this money to 
the United Nations Office of the Coordinator of Humanitarian 
Assistance, UNOCHA. UNOCHA is now going to disburse it among 
the various U.N. agencies, which they will do very quickly.
    Senator Shaheen. I think you all talked about the 
importance of a political solution in Yemen as being the 
ultimate goal. Ambassador Satterfield, you talked about the 
Houthis needing to be part of any negotiation. Who else needs 
to be at the table in order for a political solution to really 
work?
    Ambassador Satterfield. Senator, I have, over the past 40 
years, seen many complex, almost Hobbesian crises in the Middle 
East. I have to tell you the Yemen situation is one of the most 
complex in terms of the numbers of parties, sub-parties, and 
then fundamental internal divisions, the south, the north, the 
legacy of the 1993 forced reunification. All of them in one way 
or another are going to need to have a voice. They are going to 
need to be represented. The Houthis are but one, in the north a 
very significant one, but one of those parties.
    Senator Shaheen. Mr. Jenkins, Secretary Karem, who else do 
you think should be at the table in addition to the Houthis and 
the Yemenis?
    Mr. Jenkins. I would echo what U.N. Secretary-General 
Guterres has said. What is necessary right now is a dialogue 
across Yemen, an intra-Yemen dialogue that can help support a 
larger peace negotiation.
    Senator Shaheen. And who is going to lead the dialogue?
    Mr. Jenkins. We are very happy that Martin Griffiths has 
started his work. We think he needs time and space to show 
results, and we want to be as supportive as we can across the 
interagency of his efforts.
    Senator Shaheen. Secretary Karem.
    Mr. Karem. I agree with Secretary Satterfield and Mr. 
Jenkins that you are going to need to bring a number of parties 
resident inside Yemen together, and then there are also the 
external players who I think are already in touch with Mr. 
Griffiths.
    Senator Shaheen. So does that include Iran as being one of 
the players at the table to negotiate?
    Mr. Karem. I have seen precious little evidence that Iran 
is interested in a negotiated solution in Yemen or in Syria or 
elsewhere.
    Senator Shaheen. And do we think that the Houthis will 
actually negotiate in good faith if they continue to believe 
that Iran is going to support them in their activities?
    Ambassador Satterfield. Senator, our policy has been 
premised on two things: the first, creating that all-
encompassing, all-embracing political process in which the 
Houthis do have a voice and will participate in the outcome as 
well. The second is to curtail, constrain, mitigate, roll back 
the extraordinary Iranian support being provided to the Houthis 
directed at Saudi Arabia. It only emboldens a party not to 
negotiate as effectively as possible. So we are working on both 
those lines at once.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Young--and before going to him, since 
you brought up this hearing is in response to requests by 
members, we will mark up before the Memorial Day holiday the 
bill that you all put forth. Thank you for your leadership on 
that and on the AUMF itself and know that from my perspective, 
it is getting in a very, very good place. We thank you all for 
working with both of us and for taking leadership on making 
sure we do speak strongly, as you mentioned.
    Senator Young.
    Senator Young. Secretary Satterfield, I would like to pick 
up on Senator Menendez's line of questioning about the 
administration's support for the coalition should an attack 
occur on the Port of Hudaydah. You did not respond directly to 
that answer. You indicated you have repeatedly encouraged--the 
United States has repeatedly encouraged the Saudis, the 
Emiratis, and other members of the coalition not to strike the 
Port of Hudaydah. Is our support conditional upon a non-attack 
on the Port of Hudaydah? Yes or no, sir.
    Ambassador Satterfield. Senator, I will be quite explicit. 
We have told the Emirates and the Saudis there is to be no 
action undertaken that could threaten the ports of Hudaydah and 
Saleef----
    Senator Young. It sounds like encouragement to me.
    Ambassador Satterfield. ----or any routes to and from the 
port for delivery of assistance.
    Senator Young. Will our support continue should the Saudis 
or Emiratis bomb the Port of Hudaydah?
    Ambassador Satterfield. We would not view such an action as 
consistent with our own policy upon which our support is based.
    Senator Young. Will our support continue should the Saudis 
or Emiratis or another member of the coalition bomb the Port of 
Hudaydah?
    Ambassador Satterfield. Senator, you are posing, with all 
due respect, a hypothetical. We would have to see the 
circumstances in order to give a response to that question 
beyond what I have already told you.
    Senator Young. So it is not conditional. Our support would 
not be conditional on the continued allowance of food, fuel, 
medical supplies, and other humanitarian assistance into the 
primary port of Yemen.
    Ambassador Satterfield. Senator, you and I have talked back 
in those dark days of October and early November. When we told 
the Saudis explicitly that if there was not an immediate 
lifting and a sustained lifting of any constraints on access 
through Hudaydah and Saleef Port, not just of humanitarian 
goods but commercial goods as well, that it would be 
exceedingly difficult to maintain the type of support for the 
coalition that had existed, and that view has not changed.
    Senator Young. I will continue.
    Mr. Jenkins, your testimony is compelling. You put forward 
a number of facts and figures, which I would like you to 
underscore. Perhaps I can elicit a few more. This will go very 
quickly, but I think it is very important for all listeners to 
fully appreciate the gravity of the situation in Yemen.
    Approximately how many people, Mr. Jenkins, require 
humanitarian assistance in Yemen?
    Mr. Jenkins. 22 million people.
    Senator Young. What percent of the population is that?
    Mr. Jenkins. Approximately 75 percent.
    Senator Young. Was the number of people requiring 
humanitarian assistance increased from last year?
    Mr. Jenkins. It increased by, we are estimating, 3.5 
million people.
    Senator Young. And how much has it increased?
    Mr. Jenkins. About 3.5 million people.
    Senator Young. How many are severely food insecure?
    Mr. Jenkins. 17.8 million.
    Senator Young. How many children are severely malnourished?
    Mr. Jenkins. 460,000.
    Senator Young. How many people lack access to clean water 
and working toilets?
    Mr. Jenkins. We estimate it to be around 16 million people.
    Senator Young. Does Yemen face the largest cholera outbreak 
in the world?
    Mr. Jenkins. It does.
    Senator Young. How many cholera cases have we seen in 
Yemen?
    Mr. Jenkins. A suspected over 1 million cases.
    Senator Young. And how many lives has that cholera outbreak 
claimed?
    Mr. Jenkins. Almost 2,300.
    Senator Young. And, Ambassador Satterfield, do you agree 
with Mr. Jenkins' assessment of the humanitarian crisis in 
Yemen?
    Ambassador Satterfield. Absolutely, sir.
    Senator Young. So when we confront such horrible 
humanitarian suffering, I think we feel a moral imperative to 
act. I certainly do.
    Mr. Jenkins, in your prepared statement, you go further 
than that, echoing testimony of David Beasley, Matt Nims, and 
others. You write we have a national security imperative to do 
all we can to alleviate the humanitarian suffering in Yemen.
    Mr. Jenkins, very briefly, why do you believe we have a 
national security imperative to alleviate this humanitarian 
crisis?
    Mr. Jenkins. So when USAID provides humanitarian 
assistance, we are projecting both the generosity of the United 
States and also what our government and people are all about. 
We do that because it is the right thing to do but also because 
it does protect our national security to make sure that these 
places are stabilized, that deaths are kept at a minimum, and 
that suffering is alleviated.
    Senator Young. So on March 14, I convened a subcommittee 
hearing on why food security matters. I encourage anyone 
interested in Yemen and food security issues to review the 
transcript of that hearing or the video of that hearing.
    The hearing made clear there is a strong evidentiary and 
scholarly basis to conclude it is in America's clear national 
security interest to address food insecurity, among other types 
of--you know, whether it is medical aid and so forth.
    Retired Marine Corps Lieutenant General Castellaw testified 
at that hearing that food crises grow terrorists.
    Mr. Jenkins, do you agree we should expect all parties to 
the conflict to undertake measures to alleviate the 
humanitarian crisis in Yemen by increasing access for Yemenis 
to food, fuel, and medicine, including through Yemen's Red Sea 
ports, the airport in Sanaa, and external border crossings?
    Mr. Jenkins. Absolutely.
    Senator Young. And to be clear, does that include the 
Saudis?
    Mr. Jenkins. Absolutely.
    Senator Young. Ambassador Satterfield, you write in your 
prepared statement, quote, ``the administration shares your 
belief that ending the conflict in Yemen is in our national 
security interest.'' Mr. Ambassador, based on this 
administration position, do you believe we should expect all 
parties to the conflict to undertake an urgent and good faith 
effort to conduct diplomatic negotiations to end the civil war 
in Yemen?
    Ambassador Satterfield. We do, sir.
    Senator Young. And should that include the Saudis, sir?
    Ambassador Satterfield. Absolutely it should.
    Senator Young. And then lastly, Ambassador Satterfield, in 
your prepared statement, you emphasize the importance of 
adhering to the Law of Armed Conflict, including the obligation 
to take all feasible precautions to reduce the risk of harm to 
civilians.
    Mr. Ambassador, do you agree it is important and 
appropriate for the U.S. to continue to press the Saudi-led 
coalition to take demonstrable action to reduce the risk of 
harm to civilians and civilian infrastructure resulting from 
its military operations in Yemen?
    Ambassador Satterfield. I do, sir.
    Senator Young. Thank you, sir.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Menendez, for holding this important hearing on the world's 
greatest humanitarian crisis caused by the ongoing conflict in 
Yemen.
    And I would like thank our three witnesses both for 
appearing before the committee and for your service in this 
difficult challenge confronting us with so many other pressing 
challenges in the Middle East, not just this crisis in Yemen 
but also our military action against Syria over the weekend.
    I am just going to echo what Senator Menendez said at the 
outset, that it is more important than ever that the 
administration formulate and deliver a comprehensive strategy 
to the Congress and the American people so that we can better 
engage with and understand and judge what is the path forward 
in terms of confronting and restraining Iran's aggressive 
behavior, which I think is a central cause of this ongoing 
conflict in Yemen and is a critical driver of Bashar al Assad's 
barbarism in Syria. And I will insist that we need to hear more 
from the President and his team represented here by way of a 
comprehensive strategy in the near future. But let us today 
continue to drill down on some of the specifics of this 
particular conflict if we could.
    Humanitarian access first. Senator Young asked a number of 
questions admirably. He has been very engaged on the issue of 
humanitarian access through ports. Let me just add, if I could, 
a question about the closure of Sanaa's airport because of 
military strikes led by the Saudi coalition. Sanaa's airport 
has largely been closed to humanitarian relief and assistance 
and to those who might seek to leave for medical purposes.
    How can we address Saudi Arabia's legitimate security 
concerns around that airport and its use for the importation of 
weapons while at the same time making it possible for civilians 
trapped in Houthi-controlled areas to get medical care, to get 
food, to get clean water. Ambassador Satterfield, if you would 
start us off.
    Ambassador Satterfield. Senator, you have singled out 
exactly the reasons why Sanaa airport should be fully opened 
for movements in and out, not just for humanitarian, so 
labeled, purposes but general purposes as well. How best to 
assure that the genuine concerns of Saudi Arabia are met? There 
are a variety of regimes that have been put successfully in 
place to, for lack of a better word, sterilize or assure that 
cargos and people moving in and out of the airport are what 
they ought to be without significantly diminishing the ability 
of the airport to function.
    We, the United Nations have repeatedly proposed such 
regimes. Some have worked partially. The airport has a greater 
level of operation today than it did if we go back to early and 
mid-November, but more needs to be done. We believe the 
mechanisms are out there. The U.N. is willing to participate in 
them, and we think they can be made to work.
    Senator Coons. Thank you for that answer.
    Let me talk just a little bit more about water shortages, 
as several of you have spoken to. Both the Houthis and the 
Saudis have blocked deliveries of water to civilians and 
destroyed water infrastructure, which has, in large part, 
contributed to water scarcity, to the world's greatest cholera 
outbreak. Do you believe access to and control over water is 
one of the drivers of the conflict in Yemen? And how does that 
exacerbate the humanitarian crisis, and what can we best do to 
tackle the access to clean water challenges?
    Ambassador Satterfield. Senator, in Yemen control over 
water resources is not one of the primary drivers of the 
conflict. Yemen is blessed with a variety of water supplies not 
found elsewhere in the Middle East.
    The problem with water--and I will defer to my colleague 
from AID--is the elimination of reliable electricity supplies 
to purification in water treatment plants, appropriate sewage 
disposal. It is a very basic phenomenon, but it stems from 
restrictions on electricity delivery which, in turn, are the 
product of some damage to transmittal lines, but more 
importantly, lack of consistent supplies of affordable fuel.
    Senator Coons. Mr. Jenkins.
    Mr. Jenkins. The Ambassador nailed it on that one.
    Basically when you see or hear about fuel not getting to 
where it needs to go in Yemen, that immediately correlates 
itself to people not being able to pump the water that they 
need, not being able to fuel the generators that keep the 
lights on in hospitals. And water is a critical, critical 
problem for the humanitarian situation.
    Senator Coons. Let me ask, if I might, one last question. 
Al Qaeda in the Arabian Peninsula, AQAP, has been cited as one 
of the more lethal terrorist organizations in the world. Do you 
think AQAP is a greater threat to the United States now than it 
was at the beginning of the conflict back in September of 2015? 
Have we had any successes in degrading their capabilities? And 
most importantly I think from a security perspective, given the 
quote Senator Young just shared with us that food crises grow 
terrorists, what about our alignment, our strategy, our 
engagement might make us less secure today as a result of the 
conduct of the last 3 years?
    Ambassador Satterfield. Senator, as you know, we had a 
relatively sizeable presence in Yemen prior to the conflict 
focused with the legitimate Government of Yemen in going after 
AQAP because of the specific threat it poses to the homeland. 
That presence and our activities were significantly undermined 
by the collapse of the government and the outbreak of civil war 
in 2014 and 2015. We have made strides in reconstituting our 
efforts through our local partnerships, first with the 
legitimate Government of Yemen, as well as with other partner 
forces who are on the ground.
    But AQAP remains a significant threat. They have benefited 
from the civil war that has created open territory and safe 
areas for them. But as the Emiratis in particular have made 
progress in helping the Government of Yemen maintain control in 
certain areas, it has denied more area to AQAP. We, 
nevertheless, have continued to have to take a number of 
strikes against this very significant terrorist threat, and so 
it remains a challenge. But we are making progress.
    Senator Coons. Thank you all. The same conclusion is it is 
clearly both in our humanitarian interest and in our national 
security interest to reach a resolution of this conflict as 
soon as is possible. Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to the witnesses for your testimony.
    In the briefing documents that we were given for this 
hearing today, a comment was made, as the war continues, the 
risk of it spreading beyond Yemeni territory appears to be 
growing. You would agree with that, Ambassador Satterfield?
    Ambassador Satterfield. Only in the sense that Iranian 
proliferation, which has taken advantage of this conflict, is a 
broader threat than just in Yemen.
    Senator Gardner. Secretary Karem, would you agree with 
that?
    Mr. Karem. I agree with Ambassador Satterfield.
    Senator Gardner. In a letter from, I think, General Counsel 
William Castle, Department of Defense Acting General Counsel, 
to Senator Schumer and McConnell, it was talking about the 
extent of U.S. involvement. To quote the letter, ``the United 
States provides the KSA-led coalition defense articles and 
services, including air-to-air refueling, certain intelligence 
support and military advice, including advice regarding 
compliance with the Law of Armed Conflict and best practices 
for reducing the risk of civilian casualties.'' Is this the 
extent of our involvement?
    Mr. Karem. That is the extent of our involvement with 
respect to the support of the coalition's efforts in the civil 
war. We obviously provide different support with respect to CT 
operations using different authorities.
    Senator Gardner. Ambassador Satterfield?
    Ambassador Satterfield. We provide a variety of 
humanitarian, as well as political support and engagement. But, 
yes, it is an accurate accounting of our military support and 
intel support for the coalition.
    Senator Gardner. What is a ballpark personnel figure that 
we have right now involved with Yemen?
    Mr. Karem. I believe we have roughly 50 personnel in Saudi 
Arabia, but they are conducting a variety of activities, 
including I think largely helping on the ballistic missile 
threat.
    Senator Gardner. Ambassador Satterfield, I was late to the 
hearing. We schedule hearings around here at the same exact 
time, so I had a couple of other hearings to attend prior to 
joining this one.
    Ambassador Satterfield, so you may have done this already. 
Could you just lay out quickly our administration's goals as it 
relates to the conflict in Yemen?
    Ambassador Satterfield. Our goals are to facilitate 
primarily through support for the United Nations but also 
through our own direct engagement with key Yemeni parties, with 
the Saudis, with the Emiratis a comprehensive political 
resolution or a process which has the prospect of producing 
such a resolution and, in that process, reduces the level of 
conflict.
    It is also a policy goal to limit, roll back Iranian 
influence and projection of Iranian force through the 
Revolutionary Guard Corps, particularly in the form of support 
for Houthi challenges to Saudi sovereignty.
    Senator Gardner. Secretary Karem, I think you had made a 
comment. I want to make sure I get it right here. So you can 
correct me if I am wrong. You said there is precious little 
evidence that Iran is interested in any kind of a settlement. 
Does that kind of paraphrase what you said?
    Mr. Karem. Yes, although I would really say Iran benefits 
from continuing the conflict. They are fueling the conflict as 
they are in Syria and elsewhere.
    Senator Gardner. So, Ambassador Satterfield, given what 
Secretary Karem has said and our objectives, we do not really 
seem to be gaining anywhere at this point.
    Ambassador Satterfield. We have, in fact, a more promising 
political scene in Yemen today. We believe it is a better 
prospect for the new U.N. Special Envoy, Martin Griffiths, to 
work in. We see a greater degree of Emirati and Saudi support, 
genuine support, being proffered for him than was the case a 
year ago with his predecessor.
    On the Iranian side, we are working actively to address the 
ability of the Iranians to proliferate particularly missiles 
into Houthi hands. That is an ongoing process, which we hope 
can bear fruit in the not distant future.
    Senator Gardner. The United Nations report recently said 
that the authority of the legitimate Government of Yemen has 
now eroded to the point that it is doubtful whether it will 
ever be able to reunite Yemen as a single country. Do you agree 
with that?
    Ambassador Satterfield. The future of Yemen on that macro 
level, single country, two states as it was prior to 1993, is a 
matter for Yemenis to decide and undoubtedly will be one of the 
issues addressed in any comprehensive peace process is one of 
the issues which the UN has been grappling with. But more 
fundamentally than that meta question is the simple issue of 
how do you construct a political process that brings and keeps 
all of the parties, including the Houthis, in the game, offers 
them a stake in the outcome of the game, and sees through the 
process a diminishing of the level of violence and disruption 
to civilian life. That is the challenge.
    Senator Gardner. Ambassador, you mentioned proliferation. 
Could you describe for me the entities inside Iran that are 
engaged in weapons proliferation? Or actually a better question 
is have they been designated or sanctioned under the May 2012 
Yemen executive order?
    Ambassador Satterfield. They have, indeed, sir. It is the 
Iranian Revolutionary Guard Corps and the associated entities 
working through and with the Corps.
    Senator Gardner. The Jerusalem Post recently reported a 
German company provided Iran with dual-use goods that 
ultimately were used in the recent Syrian chemical weapons 
attack. Is there a risk of Iran proliferating this kind of 
attack in Yemen as well or in Saudi Arabia?
    Ambassador Satterfield. I am not sure in this forum we 
could go into significant detail about Iran's potential 
chemical weapons capabilities. We are obviously very concerned 
that they have taken the step that they have to provide long-
range ballistic missile capabilities for the Houthis to fire at 
civilian populations.
    Senator Gardner. Have we seen evidence of chemical agents 
in Yemen?
    Ambassador Satterfield. We would have to brief you in a 
closed session I think, sir.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Admitting that you made a mistake is a very difficult 
thing. America's biggest foreign policy mistakes come when we 
make a decision for military engagement and then we do not 
allow for facts on the ground to educate us about a mistake 
that we have made. The definition of insanity is doing the same 
thing over and over again and expecting a different set of 
results. And I feel like that is where we are 5 years into a 
conflict in which nothing has changed except for the worse. The 
Houthis control effectively the same amount of the country that 
they did at the outset. The humanitarian nightmare has gotten 
even worse, and yet we are still sitting here today talking 
about a peace process blossoming out of a reality on the ground 
that does not look very different than it did a year or 2 years 
ago.
    And so, Mr. Satterfield, let me pose this theory of the 
case to you. I have great respect for you, but I really do 
think that this impression that you are giving the committee 
that the Iranians do not want to come to the table and the 
Saudis and the Emiratis do is spin because the reason that we 
are asking you questions about reports of an assault on 
Hudaydah is that the Saudis have made it pretty clear to 
everyone that has asked them that they are not going to come to 
the table until the military battle lines on the ground inside 
Yemen change and that until they get the Houthis back on their 
heels militarily, they are not going to come to the negotiating 
table. And yet, you are telling us that you think that the 
Saudis are going to engage even if, after 5 years of trying to 
get the battle lines to be different, they have no success.
    So why are the Saudis going to come to the table today if 
for 5 years they have trying to move the battle lines without 
success? The reason we are asking you these questions about 
Hudaydah is that they have communicated to us that they are 
planning an assault on Hudaydah as a means of trying to change 
the dynamics in anticipation of a negotiation.
    Ambassador Satterfield. Senator, the last 3 years that this 
conflict has endured have not just shown a status quo. It has 
been a worsening of the situation with respect to military 
picture. The posture of the Houthis is strengthened today in 
comparison to what it was 3 years ago. The presence of opposing 
non-Houthi forces, Ali Abdullah Saleh, the General People's 
Congress, is significantly more diminished or fragmented. The 
presence of other elements, Islah, other actors, Ali Mohsen, in 
this conflict have less influence to bring to bear. Now, that 
may appear to be more of a chaotic mix and thus more difficult 
to bring to a resolution. Perhaps out of some sense of 
optimism, I choose to see it differently. It is a situation in 
which the hope that somehow military force alone could compel 
the Houthis as a unique party to come to the table on reduced 
terms is illusory. And we use exactly those terms with the 
Saudis and Emiratis.
    Senator Murphy. But that has been the Saudi position for 
the last 5 years, that military pressure, continued military 
pressure, an average of 15 airstrikes a day for 3 years 
consecutive is going to bring the Houthis to the table. That 
has been the theory of the case from the Saudi coalition's 
perspective. Correct?
    Ambassador Satterfield. It is the Saudi position that 
military force needs to be continued to apply. Our response to 
the Saudis at the highest levels has been that application of 
force has not been and is not predictably likely to be 
successful in achieving that----
    Senator Murphy. And we have been unsuccessful in changing 
their mind for 5 years, and we expect things to change.
    Mr. Jenkins, we are comparing the current state of 
humanitarian relief to a moment in time last fall when 
virtually no relief was getting through. That is not the proper 
comparison or at least a useful comparison.
    So let me just quote from a recent U.N. report that 
suggests that today half as many vessels are getting into 
Hudaydah and Saleef as before the blockade and that on average, 
the Saudi inspection process is adding 100 days to relief 
supplies getting into these ports despite the fact that we have 
a U.N. verification process that is taking a look at these 
ships as well.
    Why do the Saudis need to continue to look at every single 
ship that comes in, chilling the interest in humanitarian 
supplies, adding additional time when we have a U.N. process 
that so far has shown no evidence of not actually being able to 
conduct these inspections?
    Mr. Jenkins. So, Senator, it is true that throughput at the 
Port of Hudaydah has not yet gotten back to the level we saw 
before the October-November enclosure. And there has been a 
very chilling effect on shippers, particularly shippers using 
containerized vessels who do not want to take the risk of going 
to Hudaydah and also because they do not know how long it will 
take to go through clearance.
    However, we have been working very carefully--the State 
Department, USAID, other donors--with the coalition to reduce 
the time that the EHOC process--that is the coalition's 
Evacuation Humanitarian Assistance Operations Cell. In the 
month of April 3rd, we got that down to about 3 to 4 days. So 
it is not 100 days. There has been a lot of work done getting 
the communication between that process and the U.N. 
verification and inspection mechanism process together. The 
U.N. system, UNVIM, gets back within 48 hours on a 
determination of whether or not a vessel actually needs to be 
searched or not, and then it goes through the EHOC process. We 
have seen, particularly in the last 6 weeks, significant 
progress on that, and we are looking forward to reducing those 
times even more.
    What we do need is we need shippers in the region to know 
how long it will take and that will, hopefully, get more 
shipping back into Hudaydah Port, particularly 
compartmentalized cargo.
    Senator Murphy. Thank you.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman, for holding the 
hearing.
    And thank you for the testimony.
    Following up on Senator Coons' questions with regard to 
AQAP, it strikes me--it is difficult. We are working at kind of 
cross purposes there. Can somebody give me an assessment of 
AQAP and their position relative to their ability to project 
force for the homeland, as was mentioned, now versus 2 years 
ago? What position are they in?
    Mr. Karem. Senator, off the top of my head, I cannot give 
you a good indication of their current strength now versus 2 
years ago. I think we did see at the beginning of the conflict 
and in the early years of the conflict a real diminution of the 
pressure we were able to apply on them. In the last year, we 
have been able to apply much more pressure. As General Votel 
testified just last month, we took over 100 strikes, in 
coordination with our partners, against AQAP in Yemen last 
year. So we are putting significant pressure on them, but as I 
said, they continue to plot and plan to conduct terrorist 
attacks.
    Senator Flake. We have been able to do that still without 
impacting the effort against the Houthis.
    Mr. Karem. There is some geographical separation in where 
these threats are based, and so my understanding is that they 
are separated. But, nevertheless, because we require support 
from the Government of Yemen and other local partners, 
everything is connected. And so it is a very complicated 
situation. It is also why we are worried about the longer this 
civil war rages, the harder it will be to establish the 
conditions for us to bring it in to the threat that AQAP poses.
    Senator Flake. Thank you.
    Ambassador Satterfield, as you know, the Senate has taken 
several votes in recent history that would impact our ability 
to work with our Saudi partners on this issue. Most recently we 
voted on a resolution that would have required the President to 
withdraw all forces deployed in support of the Saudi coalition. 
The chairman just mentioned new legislation that we will be 
considering that looks to certain certifications that will be 
met.
    What is your view on this legislation? Will it help? Is it 
a hindrance? How is it viewed by the administration?
    Ambassador Satterfield. Senator, I have just seen the text 
of the proposed resolution and we will be reviewing that and 
responding.
    Senator Flake. Any other thoughts on this type of 
certification? Sometimes some say it is easy to have a 
certification list depending on what snapshot in time you look 
at. You mentioned you wanted to comment.
    Mr. Karem. I have not seen the text of the legislation. I 
would say I think there are some concerns that we have had with 
hard conditionality. I think we are very happy to come up here 
to talk about the progress we are making and the kinds of 
pressure and conversations we are having with our partners to 
improve their targeting and their application of the Law of 
Armed Conflict, but worry that hard conditionality, in part 
because the Houthis get a vote, could negatively affect our 
efforts to influence their behavior.
    Senator Flake. Ambassador Satterfield, if we were asked to 
certify right now if Saudi Arabia was working earnestly to 
achieve a political settlement allowing humanitarian aid to 
pass into Yemen and protecting civilians in Yemen in order for 
U.S. support for their efforts, could we make that 
certification now?
    Ambassador Satterfield. Senator, you will understand if I 
respond to that hypothetical were that a condition of 
assistance, the administration would carefully consider on all 
bases how best to respond. But I am not able to do so now.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Secretary Karem, General Votel, the Commander of the U.S. 
Central Command, recently called Iran's arming of the Yemeni 
rebels with ballistic missiles a, quote, ``growing threat, 
which I think poses a significant danger not just to Saudis and 
Emiratis, but poses a risk to us.'' Can you explain why we 
should accept DoD's circular logic that once the administration 
at the political level inserts itself into a conflict, American 
service members are exposed to risks which then justifies 
continued U.S. participation in the conflict? It is a never-
ending circle.
    Mr. Karem. Senator, I think that even if the United States 
was not involved in helping our partners in Yemen, even if we 
were not involved in conducting efforts against AQAP in Yemen, 
Iran's development of ballistic missile capabilities, 
transference of these ballistic missile capabilities would pose 
a threat to the United States, not just because it poses a 
threat to our partners in the region, be that the UAE or Saudi 
Arabia or Israel, but because there are hundreds of thousands 
of Americans who live in the Middle East. I believe there are 
nearly 100,000 Americans who live in Saudi Arabia. So the 
Iranian-backed Houthis' willingness to fire ballistic missiles 
at populated areas in the Middle East I think poses a threat 
not just to our partners but to us.
    Senator Markey. Okay, but when we provide refueling service 
to Saudi coalition aircraft, do we have any say in the 
operation that those aircraft are conducting? In other words, 
do we know for a fact or can we assert that the Saudi coalition 
aircraft we refuel are engaging only in counterterrorism 
strikes and not in anti-Houthi operations?
    Mr. Karem. Senator, I believe we know that they are 
conducting counter-Houthi operations. As I mentioned earlier 
and as I think General Votel testified, we do not monitor every 
flight. We do not have the personnel or assets to do that given 
our other obligations.
    I would want to correct the impression that we do not 
follow and do not track civilian casualties in Yemen. 
Obviously, we have intelligence reporting and also reporting 
from NGOs who are on the ground. And it is a range of 
information we have that leads us to believe that our partners 
have improved their capacity in limiting civilian casualties.
    Senator Markey. Yes, but of course, the more that we are 
involved, the more at risk--as General Votel says, it poses a 
risk to us. So we are getting in deeper and deeper here. And we 
again we have not had the decision made by Congress in terms of 
the level of our intervention.
    Does the United States in any way provide advice on what 
targets Saudi coalition aircraft target?
    Mr. Karem. We provide advice with respect to how to conduct 
targeting. We do not provide advice on specific targets is my 
understanding.
    Senator Markey. It is your understanding that when the 
planes take off after being refueled by the U.S. and that you 
are helping them make general targeting decisions, that you do 
not think that the United States has any idea where these 
planes are going and what they are going to hit. Is that what 
you are saying?
    Mr. Karem. As I said, we do not monitor and track 
individual aircraft. We have a general idea, obviously, that--
--
    Senator Markey. Do we have a policy which we express to the 
Saudis with regard to the targets that we do not want to have 
hit? Do we tell them expressly?
    Mr. Karem. I think we have been very clear with our 
partners about their obligations under the Law of Armed 
Conflict to avoid non-combatant casualties----
    Senator Markey. And what level of confidence do you have 
that they have abided by that?
    Mr. Karem. I think we have a growing level of confidence. I 
would, though, defer to assessments from our intelligence 
services who I believe----
    Senator Markey. So you are saying it is a high confidence 
that they do not do it. Is that what you are saying?
    Mr. Karem. I think we have a high degree of confidence that 
their targeting processes have improved----
    Senator Markey. No, no. Is it a high level of confidence 
that they are not hitting civilian targets? So you have a high 
level of confidence that they are not hitting civilian targets.
    Mr. Karem. I think, unfortunately, our experience is that 
it is impossible to have a 100 percent record at avoiding 
civilian casualties in war.
    Senator Markey. So you think there is only a 1 percent 
chance that they are hitting civilians. Is that what you are 
saying? Because it is not 100 percent you are saying, but 99 
percent confident that they are not?
    Mr. Karem. I am saying they have made improvements in their 
efforts to avoid civilian casualties in large part because of 
the support that we have provided. In the absence of U.S. 
support, I would not be so confident that that level of 
assurance would continue.
    Senator Markey. Do you have any sort of quantitative 
evidence to support that assertion?
    Mr. Karem. Yes. I believe that we have reporting about the 
number of strikes that have been taken, and I think there is 
intelligence reporting and public reporting about the level of 
civilian casualties.
    Senator Markey. So that is quantitatively determined and 
available to this committee?
    Mr. Karem. I am sure in closed session that there are 
materials that are available.
    Senator Markey. Materials that go to the quantitative 
evidence.
    Mr. Karem. I believe so, yes, sir.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Gardner. [presiding]: Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And thank you all for your service.
    An estimated 10,000 Yemeni civilians have been killed by 
Saudi airstrikes. Last year, Saudi Arabia claimed it would 
engage in a $750 million multiyear training program through the 
American military to help prevent the accidental killing of 
civilians in the Saudi-led air campaign against the Houthi. 
When the Saudis say multiyear, how long is it going to take to 
get the Saudi military to stop accidentally killing civilians?
    Mr. Karem. Senator, as I said, I think we have seen clear 
indications that they are making progress, but war is 
incredibly difficult and it is impossible for any military to 
promise it can conduct military operations without any risk to 
civilian casualties. Our belief is that by continued 
partnership with the Saudis, that we can help improve their 
capabilities. If we do not provide that kind of support, there 
are others who will who do not care about civilian casualties. 
The Russians do not similarly provide the kind of training and 
advice with respect to civilian casualties that the United 
States does.
    Senator Udall. Thank you.
    Do any of the other panelists want to comment on that?
    Ambassador Satterfield. Senator, yes. Building on Secretary 
Karem's remarks, there are two challenges posed through 
coalition military activities in Yemen. One is collateral 
civilian casualties. We have worked over this past year in a 
manner that from both an anecdotal and a qualitative fashion we 
believe have achieved demonstrable progress. And there is, 
indeed, in another setting summary information available on why 
we make that statement.
    But there is another aspect, which has been addressed by 
many of the members of this committee as well, which is the 
military campaign against the Houthis--that is, against 
military Houthi targets--and whether that is an effective means 
of producing a peace resolution. We do all in our power as a 
partner of the Saudis in mitigating civilian casualties, but we 
also counsel the Saudis and have done so at the highest levels 
of the government that the military campaign against Houthi 
military targets is not, in our view, an effective way of 
bringing about a peace settlement.
    They are two different issues, but they combine to the same 
place, which is a political resolution vice a military 
resolution is necessary here.
    Senator Udall. Thank you.
    Mr. Satterfield and Mr. Jenkins mentioned that the lack of 
access to clean water is due to the lack of fuel or energy to 
pump the water. How much would the international community need 
to contribute to fix this problem and restore access to clean 
water and meet basic nutrition and sanitation needs?
    Mr. Jenkins. Thank you. Not being able to put an amount on 
it, the issue is the access. If access is free and unfettered 
through both the ports and road networks inside and in the road 
networks throughout, shortages of fuel should not exist.
    Senator Udall. Are there currently requests in the foreign 
operations budget to help provide these resources to do what I 
was asking about?
    Mr. Jenkins. There is no request specifically. We use 
contingency funding in the International Disaster Assistance 
account, and we do not specify even by country, leaving us 
maximum flexibility to respond to whatever needs we can 
globally and within Yemen. So there is no specific request for 
that.
    There is a fuel mechanism now set up through the United 
Nations specifically for the importation of fuel through 
Hudaydah Port for the use by humanitarian actors on the ground.
    Senator Udall. Please let us know if additional resources 
are needed.
    There have been considerable reports from human rights 
watchdogs and the Associated Press that detainees have been 
tortured. The United Arab Emirates have been implicated in 
these allegations. What is your assessment of the UAE 
involvement in the torture of detainees, and what action has 
the State Department taken to address this issue?
    Ambassador Satterfield. Senator, in this session, we are 
engaged with the UAE authorities on these allegations with 
respect to what may or may not have occurred and what steps 
need to be taken to provide a satisfactory level of assurance 
that there is no such practice going on.
    Senator Udall. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Gardner. Thank you, Senator Udall.
    Senator Menendez for a follow-up question.
    Senator Menendez. Thank you.
    Ambassador Satterfield, the Countering America's 
Adversaries Through Sanctions Act directed the administration 
to mandatorily impose sanctions on Iran for its violation of 
the international arms embargo. In the past year, the U.N. 
Panel of Experts on Yemen informed the Security Council of Iran 
violating the arms embargo.
    As a result of the U.N. information, has the administration 
imposed any additional sanctions as required by CAATSA?
    Ambassador Satterfield. Senator, I will respond to your 
question in writing.
    [The Committee Received No Response From Ambassador 
Satterfield]
    Senator Menendez. Okay. Is that because you do not know the 
answer?
    Ambassador Satterfield. I do not know the specific answer. 
We will respond in detail.
    Senator Menendez. Okay, because your earlier answer to me 
is unsatisfactory insofar as that from my view, since you gave 
me that answer is that there have been no specific mandatory 
sanctions placed on Iran as a result of the violations of arms 
embargo, this being one element of it. So I am of the view that 
when we pass something here in the Senate 98 to 2, and 
overwhelmingly in the House, that that is the law of the land 
and the law needs to be implemented, especially against an 
adversary which we are so concerned about in the region. So I 
look forward to that answer.
    Senator Gardner. Senator Young.
    Senator Young. Mr. Jenkins, historically roughly 90 percent 
of the food that goes into the country of Yemen has come in 
from the outside. It is imported into the country, and a 
significant amount of their fuel and medicine is as well. 70 to 
80 percent of those imports come in through the Port of 
Hudaydah.
    With that in mind, what would be the implications, the 
humanitarian consequences of an attack on the Port of Hudaydah 
by the Saudi-led coalition?
    Mr. Jenkins. With the temporary closure of Hudaydah back in 
October and November, we saw that an extended closure of the 
port would be catastrophic to the humanitarian needs in the 
country.
    Senator Young. Can you throw some numbers? I do not know if 
there are internal projections about, over a certain period of 
time, the impact that would have on the number of people that 
would succumb to disease and hunger and so forth.
    Mr. Jenkins. So I do not have numbers offhand. I do know 
that the vast majority of people within that--or the majority 
of people in need in that 22 million number live in the 
northern part of the country that are accessible best and 
easiest by Hudaydah Port. There is no way to take Hudaydah out 
of the equation and get anywhere near the amount of 
humanitarian and, more importantly even, commercial goods into 
the country.
    Senator Young. I have a related question to both you, Mr. 
Jenkins, and Ambassador Satterfield relating to the clearance 
process, which was discussed a bit earlier. But what more can 
I, as a Member of the United States Senate, do to be helpful in 
ensuring that there is a more expeditious delivery of food, 
fuel, and medicine through the ports?
    Ambassador Satterfield. Senator, your efforts, the efforts 
of your colleagues in this body and on this committee have been 
exceedingly helpful in allowing the administration to send a 
message from whole of government regarding the very specific 
concerns we have over any limitations, restrictions, 
constraints on the ability of both humanitarian and commercial 
goods, specifically to include fuel, to have unrestricted and 
expeditious entry into Yemen. And that messaging, which comes 
from us, the executive branch, also comes from this body, is 
extremely important.
    Senator Young. Well, I want to thank you personally, 
Ambassador Satterfield. You did reference our previous 
conversations and work on this. And I am glad you are on the 
beat. You bring great credit upon yourself and the Department 
of State and represent our country quite well in this difficult 
situation.
    I would like to summarize some of the things I elicited in 
my earlier round of questioning. Mr. Jenkins agreed we should 
expect all parties to the conflict to undertake measures to 
alleviate the humanitarian crisis in Yemen. Ambassador 
Satterfield said we should expect all parties to undertake an 
urgent and good faith effort to conduct diplomatic negotiations 
to end the civil war there. And Ambassador Satterfield said we 
are right to continue to press the Saudi-led coalition to take 
demonstrable action to reduce the risk of harm to civilians and 
civilian infrastructure resulting from its military operations 
in Yemen.
    So for my colleagues, as they review the transcript of this 
hearing, I think it is important that they note that all three 
of those statements reflect the certification requirements in 
Senate joint resolution 58, which Senator Shaheen, Collins, and 
Coons helped me introduce last week.
    Thank you, Mr. Chairman. I yield back.
    Senator Gardner. Thank you, Senator Young.
    Thank you, Ambassador Satterfield. Secretary Karem, thank 
you very much. And, Mr. Jenkins, thank you for your time and 
testimony and sharing your expertise with us.
    For the information of Senators, the record will remain 
open until the close of business on Thursday, including for 
members to submit questions for the record. We would ask the 
witnesses to return answers to those questions submitted for 
the record as quickly as possible.
    With the thanks of this committee, this hearing is now 
adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


             Responses of Mr. Robert Jenkins to Questions 
                    Submitted by Senator Marco Rubio

    Question. As was noted in the hearing, the U.N.'s Office for the 
Coordination of Humanitarian Affairs estimates that 75% of Yemen's 
population of 30 million needs assistance, an increase of 3.4 million 
from last year. How is U.S. foreign assistance being spent in Yemen? 
How much is actually needed to address the humanitarian crisis? Do NGOs 
have the access they need to provide humanitarian aid? How is the Saudi 
government reacting to the humanitarian crisis?

    Answer. As one of the largest donors of humanitarian aid to Yemen, 
the United States has provided more than $854 million in humanitarian 
assistance since the beginning of Fiscal Year 2017. This life-saving 
assistance includes food, safe drinking water, treatment for 
malnutrition, emergency medical care, shelter, legal aid, psychosocial 
support, and improved sanitation and hygiene kits to fight the spread 
of diseases, among other assistance.
    According to the U.N., approximately $2.96 billion is needed to 
provide assistance to the 13.1 million people targeted for assistance 
in 2018, out of the 22 million people who are in need of humanitarian 
aid. On April 3, international donors pledged more than $2 billion to 
support the U.N. Humanitarian Response Plan. If realized, the pledges 
would account for two-thirds of the response plan. The United States 
welcomes the Saudi-led Coalition's $930 million contribution to the 
U.N. in early April. However, the U.S. Government continues to 
emphasize that unrestricted access for all humanitarian and commercial 
imports through all ports is necessary for averting famine and helping 
millions of people in need.
    Ongoing conflict, general insecurity, and bureaucratic access 
impediments--including restrictions on ground movements and on the 
importation of humanitarian and commercial goods--pose the most 
significant challenges to relief operations. Although Red Sea ports 
have re-opened, concerns about future restrictions and clearance delays 
have created a chilling effect, stopping shipments from returning to a 
level that can meet needs. The flow of commercial goods is also a 
humanitarian imperative. Given the scale of the crisis and that Yemen 
traditionally imports 90 percent of its food and most of its fuel and 
medicines, humanitarian aid alone cannot address the needs--commercial 
imports must continue and increase to pre-conflict levels. Despite 
these challenges, the U.S. Government's partners continue to provide 
life-saving assistance to millions of people.
                                 ______
                                 

             Responses of Mr. Robert Jenkins to Questions 
                    Submitted by Senator Todd Young

    Question. Is there any evidence of large scale diversion of 
humanitarian assistance going into Yemen by any party to the conflict--
including the Houthis?

    Answer. Diversion occurs when cash or in-kind assistance does not 
reach the intended recipient. While there are access constraints in 
Yemen, including delays in clearing humanitarian aid through the ports, 
the U.S. Government has not received evidence of any large-scale 
diversions. Information received from the U.S. Government's trusted 
U.N. and non-governmental organization partners and other sources does 
not support, and in many cases refutes, allegations of systemic 
diversions of humanitarian aid.
    Humanitarian aid provided by the United States is intended for the 
millions of children, women, and men in need in Yemen, and there is no 
acceptable level of aid diversion. The United States takes any 
allegations of diversion of humanitarian assistance very seriously, and 
we follow up with every alleged incident of diversion reported. The 
U.S. Government requires implementing partners to have proper 
safeguards and risk mitigation systems in place to ensure that 
humanitarian aid reaches those who need it most. USAID also supports a 
third-party monitor--an oversight tool in countries where we have a 
restricted presence--conducting independent verification of 
humanitarian activities and reporting back directly to USAID.
                                 ______
                                 

            Responses of Hon. Robert S. Karem to Questions 
                    Submitted by Senator Marco Rubio

    Question. According to a March 2016 piece in Foreign Affairs, a 
Hezbollah commander told the authors ``After we are done with Syria, we 
will start with Yemen, Hezbollah is already there,'' and added, ``Who 
do you think fires Tochka missiles into Saudi Arabia? It's not the 
Houthis in their sandals, it's us.'' Is Hezbollah supporting the 
Houthis? If so, how? Do you believe that once the Syrian civil war 
ends, Hezbollah will shift its focus to Yemen? Is Hezbollah in Yemen at 
the direction of Tehran?

    Answer. As we have seen with Iran's support to Lebanese Hizballah, 
Tehran is providing advanced weaponry to the Houthis in violation of 
United Nations Security Council Resolutions. With Iranian support, the 
Houthis are launching increasingly sophisticated missiles at Saudi 
civilian sites and population centers, increasing the risk of a broader 
regional conflict. I can provide additional details in a classified 
setting.

    Question. As was noted in the hearing, the U.N.'s Office for the 
Coordination of Humanitarian Affairs estimates that 75% of Yemen's 
population of 30 million needs assistance, an increase of 3.4 million 
from last year. How is U.S. foreign assistance being spent in Yemen? 
How much is actually needed to address the humanitarian crisis? Do NGOs 
have the access they need to provide humanitarian aid? How is the Saudi 
government reacting to the humanitarian crisis?

    Answer. The U.S. Government is providing life-saving humanitarian 
assistance to internally displaced persons and other conflict-affected 
populations in Yemen. U.S. Government activities focus on addressing 
the health and nutritional needs of those most affected by the 
conflict. Access remains a key impediment to the provision of 
humanitarian aid. In addition to exacerbating the civil conflict, the 
Houthis disrupt and commandeer the distribution of humanitarian aid and 
commercial goods, and exploit aid deliveries for their own political 
and financial gain. Saudi Arabia is one of the largest humanitarian 
assistance donors to the people in Yemen. Just last month, Saudi Arabia 
and the UAE provided nearly $1 billion in assistance to the U.N.'s 
Yemen Humanitarian Fund. We do believe the Saudis can do more to 
address Yemen's humanitarian concerns and we continue to work closely 
with them on this important issue.

    Question. Up to this point, the Kingdom of Saudi Arabia has 
committed very few ground forces to its fight in Yemen, focusing almost 
exclusively on the air war. It is starting to look like this approach 
has accomplished as much as it can and it might be time for the Saudi 
government to reconsider its approach to the situation. Are we now in a 
stalemate, with neither the Saudis nor Houthis able to defeat 
decisively the other? Could an introduction of Saudi ground forces 
change the situation? Does a lack of Saudi ground forces indicate that 
Riyadh lacks the resolve to do what it would take to win the conflict 
and end the humanitarian crisis?

    Answer. We continue to reiterate to our partners that there is not 
a military solution to this conflict, and we are hopeful that the new 
U.N. Special Envoy to Yemen, Martin Griffiths, will be able to revive 
negotiations towards a political settlement that would preserve Yemen's 
unity and end the humanitarian crisis. At the same time, we are working 
with Saudi Arabia to improve its capacity to defend its own sovereignty 
and security as the Houthis continue to launch missile attacks on major 
Saudi population centers.

    Question. Is a unitary Yemen possible after years of civil war? 
What would need to happen to create a stable and unitary Yemen? What 
would be the consequences for Yemen and the region if the country re-
split?

    Answer. We continue to believe that a unified Yemen is in U.S. 
interests, and essential to closing the political and security vacuum 
that AQAP and ISIS are exploiting. A split would divide the majority of 
Yemen's population from its natural resources, which risks creating 
incentives for future conflict and would undercut U.S. counterterrorism 
efforts. DoD strongly supports the efforts of U.N. Special Envoy for 
Yemen Martin Griffiths as he works to advance a political resolution to 
the conflict that addresses the core concerns of key Yemeni political 
actors.
                                 ______
                                 

            Responses of Hon. Robert S. Karem to Questions 
                     Submitted by Senator Tim Kaine

    Question. Has the Houthi threat to U.S. naval vessels in the 
Persian Gulf increased or decreased over the course of the Saudi-led 
war in Yemen?

    Answer. Houthi forces, with Iranian backing, remain a significant 
threat to both commercial and naval vessels in the Red Sea. Iran has 
expanded its support to the Houthis since the start of the war and 
allowed the Houthis access to new technologies. As recently as April 3, 
Houthi forces attacked a Saudi oil tanker off the coast of Yemen. DoD 
continues to work closely with our partners in the region to counter 
this threat.

    Question. Has U.S. involvement in the Yemen war increased the 
threat of Houthi direct fire on U.S. forces or U.S. naval vessels? Has 
the U.S. taken direct fire from Houthi targets?

    Answer. The Houthis have attempted to broaden the conflict to a 
regional war, including with missile attacks on major Saudi population 
centers and on commercial and naval vessels in the Red Sea. U.S. forces 
reserve the right to act in self-defense, and DoD responded to an 
incident in October 2016 when Houthi insurgents launched anti-ship 
cruise missiles that threatened U.S. navy warships in the international 
waters of the Red Sea. U.S. forces have not been introduced into 
hostilities or situations where hostilities are imminent in the civil 
conflict in Yemen. Aerial refueling of Coalition aircraft conducting 
counter-Houthi operations occurs outside of Yemeni airspace. U.S. 
military forces do not accompany or participate in the movement of 
Coalition forces in counter-Houthi operations in Yemen. U.S. military 
forces conducting counterterrorism operations in Yemen are 
geographically isolated from Houthi-controlled areas.

    Question. In October 2016, the U.S. took strikes against radar 
facilities in Houthi-controlled territory in Yemen to defend U.S. naval 
ships in international waters. These strikes were justified based on 
Article II, self-defense. The Administration has also said that U.S. 
engagement in support of the Saudi war against the Houthis does not 
constitute hostilities because the U.S. is not taking direct fire. Can 
you explain the Administration's reasoning that it does not need an 
AUMF to support the Houthi war in Yemen because U.S. forces are not 
taking fire and then justify a response to the threat direct fire under 
Article II?

    Answer. The exchange of fire in October 2016 was an isolated 
instance. U.S. personnel have not engaged in such exchanges of fire 
against Houthi forces since October 2016. Acting DoD General Counsel 
provided a detailed analysis to Senator McConnell on February 27 
outlining the legal authorities underpinning DoD activities in Yemen. 
Additional legal analysis on the radar strikes was communicated in a 
letter from President Obama to Congress on October 14, 2016.

    Question. Should these episodes increase in frequency, will the 
Administration request an AUMF from Congress? In the counter-Houthi 
context, how does the Administration define U.S. ``engagement in 
hostilities?''

    Answer. The United States does not seek to become an active 
combatant in the Yemen civil war. Were that policy to change, the 
Department would urge consultation with the Congress on the nature of 
any future involvement. It has been the longstanding view of the 
Executive Branch that ``hostilities'' for the purposes of the War 
Powers Resolution refers to ``a situation in which units of U.S. armed 
forces are actively engaged in exchanges of fire with opposing units of 
hostile forces.'' U.S. forces have not engaged in any such exchanges of 
fire with Houthi forces since acting in self-defense in October 2016. 
U.S. forces always retain the right to respond in self-defense to 
hostile acts or demonstrations of hostile intent, including any such 
threats or attacks by Houthi insurgents.

    Question. Does the Department of Defense believe that mid-flight 
refueling and aerial targeting assistance constitutes the accompaniment 
of ``regular or irregular military forces of any foreign country or 
government when such military forces are engaged'' per the War Powers 
Resolution? Does refueling help the movement of foreign forces engaged 
in a military conflict?

    Answer. U.S. forces do not currently command, coordinate, 
accompany, or participate in the movement of Coalition forces in 
counter-Houthi operations in Yemen. No U.S. forces accompany the Saudi-
led Coalition when its military forces are engaged, or when an imminent 
threat exists such that they could become engaged in hostilities. 
Accordingly, U.S. forces supporting the Saudi-led Coalition in its 
counter-Houthi operations have not been introduced into hostilities or 
situations where hostilities are imminent.

    Question. Are U.S. forces in Saudi Arabia participating in 
assisting, advising, or refueling missions eligible for combat awards 
or imminent danger pay, deemed in a tax-free status, or accruing 
``combat leave?'' Does DoD's administrative system view them as being 
in a ``peacetime'' or ``wartime'' environment in their current 
assignment?

    Answer. For certain administrative pay and benefits purposes, Saudi 
Arabia has been regarded as a combat zone since January 1991. The 
Internal Revenue Service considers all combat zones, as declared by the 
President, to be tax-exclusion zones. Personnel supporting U.S. 
military efforts in the Arabian Peninsula are in a tax-free status. 
Combat awards are conditions-based awards. U.S. forces advising the 
Saudi-led Coalition are not involved in hostilities, therefore are not 
eligible for combat awards for this mission.
                                 ______
                                 

            Responses of Hon. Robert S. Karem to Questions 
                    Submitted by Senator Todd Young

    Question. Compared to the previous year, has the number of civilian 
casualties from the Saudi-led coalition air campaign increased or 
decreased?

    Answer. All parties to the conflict are responsible for civilian 
casualties. We are aware of NGO and media reports of alleged civilian 
casualty events, but we are unable to independently verify all of these 
reports. We assess the Saudi-led coalition air campaign resulted in 
fewer casualties than it otherwise would have without U.S. advisory 
support. DoD continues to work with Saudi Arabia to improve its 
capacity to defend itself while mitigating the risk to noncombatants. 
U.S. advisers assess Saudi Arabia has made improvements in its conduct 
of the war over the past year, including use of an expanded No-Strike 
List and more stringent rules of engagement and increased attention to 
efforts to mitigate risk of harm to civilians.
                                 ______
                                 

            Responses of Hon. Robert S. Karem to Questions 
                    Submitted by Senator Cory Booker

    Question. Compared to the previous year, has the number of civilian 
casualties from the Saudi-led coalition air campaign increased or 
decreased?

    Answer. All parties to the conflict are responsible for civilian 
casualties. We are aware of NGO and media reports of alleged civilian 
casualty events, but we are unable to independently verify all of these 
reports. We assess the Saudi-led coalition air campaign resulted in 
fewer casualties than it otherwise would have without U.S. advisory 
support. DoD continues to work with Saudi Arabia to improve its 
capacity to defend itself while mitigating the risk to noncombatants. 
U.S. advisers assess Saudi Arabia has made improvements in its conduct 
of the war over the past year, including use of an expanded No-Strike 
List and more stringent rules of engagement and increased attention to 
efforts to mitigate risk of harm to civilians.

    Question. There are multiple reports that the UAE is training 
thousands of local militia fighters. Who are the local forces that UAE 
is training? Are there any indications that they have ties to Al Qaeda 
(AQAP) or ISIS? What are threats to U.S. interests from the Emirati 
support to these Salafist militias?

    Answer. The UAE has longstanding ties to southern Yemeni tribes, 
some of which have been recruited in an effort to counter AQAP and 
ISIS. This bottom-up security approach has produced notable 
counterterrorism successes. U.S. counter-AQAP and counter-ISIS efforts 
in Yemen are facilitated by our close cooperation with Emirati and 
partner forces.

    Question. On March 20, several members of the Senate Armed Services 
Committee sent a letter to Secretary Mattis indicating they were not 
given a notification DoD is required to submit to SASC and to this 
committee, concerning the 2016 promulgation of an Acquisition and 
Cross-Servicing Agreement (ACSA) between the United States and Saudi 
Arabia. This ACSA is the legal basis for U.S. refueling assistance to 
the Saudi air campaign in Yemen, is it not? If not, what is the legal 
underpinning of the assistance? A 1998 letter from DoD to then Senate 
Armed Services Chairman Nunn says only that Saudi is eligible for an 
ACSA, not that DoD has signed one. When did DoD notify Congress of its 
ACSA with Saudi Arabia? Although the ACSA was promulgated in May 2016, 
U.S. support to the Saudi coalition's air campaign began in March 2015. 
What bilateral agreement governed U.S. logistical assistance for the 
first year of the Saudi coalition's intervention in Yemen? Was Congress 
consulted on this previous agreement? Why did DoD fail to notify all 
members of the Senate Armed Services Committee about this ACSA, given 
its direct relevance to ongoing U.S. involvement in the Yemen conflict? 
The law requires that any assistance provided pursuant to this 
authority be reimbursed with ``reciprocal provisions of logistic 
support, supplies, and services by such government.'' According to 
public reports, DoD has been unable to account for reimbursement of the 
inflight refueling assistance that has been provided to the Saudi-led 
coalition. Can you provide a full accounting of reimbursements by both 
the UAE and Saudi Arabia for inflight refueling assistance provided 
since March 2015?

    Answer. The Department is currently gathering information so we can 
provide a response to Senator Blumenthal's letter on this issue.

                                  <all>
</pre></body></html>
